                  Office of Inspector General
       Export-Import Bank of the United States




       AUDIT OF THE 

EXPORT-IMPORT BANK OF THE 

      UNITED STATES 

     FISCAL YEAR 2009 

  FINANCIAL STATEMENTS 





                                     November 13, 2009
                                        OIG-AR-10-01
                                       EXPORT-IMPORT BANK
OFFICE OF INSPECTOR GENERAL            OF THE UNITED STATES


    November 13, 2009


    MEMORANDUM

    TO: 	            Fred P. Hochberg
                     Chairman and President

                     John Simonson
                     Senior Vice President and Chief Financial Officer

    FROM:              Jean Smith
                       Assistant Inspector General for Audit

    SUBJECT: 	       Audit of the Export-Import Bank’s Financial Statements for Fiscal Year 2009

    This memorandum transmits Deloitte and Touche LLP’s audit reports of the Export-Import Bank
    of the United States (Ex-Im Bank) financial statements for fiscal year ended 2009. Under a
    contract monitored by this office, we engaged the independent public accounting firm of Deloitte
    and Touche to perform the audit. The contract required the audit to be done in accordance with:
    United States generally accepted government auditing standards; Office of Management and
    Budget audit guidance; and the Government Accountability Office (GAO)/President’s Council
    on Integrity and Efficiency Financial Audit Manual.

    Deloitte and Touche issued an unqualified opinion on Ex-Im Bank’s financial statements. Also,
    Deloitte and Touche reported no internal control deficiencies were identified and no reportable
    noncompliance with laws and regulations were found.

    Deloitte and Touche is responsible for the attached auditor’s reports dated November 13, 2009
    and the conclusions expressed in the reports. We do not express opinions on Ex-Im Bank’s
    financial statements or internal control or conclusions on compliance with laws and regulations.

    We appreciate the cooperation and courtesies provided to Deloitte and Touche and this office
    during the audit.

    Attachment

    cc: 	   Alice Albright, Chief Operating Officer
            Joseph Sorbera, Audit Liaison




                     811 Vermont Avenue, N.W. Washington, D.C. 20571
                         Export-Import Bank of the United States 

                          Fiscal Year 2009 Financial Statements 


                                          TABLE OF CONTENTS

INDEPENDENT AUDITOR’S REPORT ............................................................SECTION 1 


INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER MATTERS
BASED UPON THE AUDIT PERFORMED IN ACCORDANCE WITH
GOVERNMENT AUDITING STANDARDS .....................................................SECTION 2

FINANCIAL STATEMENTS ..............................................................................SECTION 3
  Balance Sheets
  Statements of Net Costs
  Statements of Changes in Net Position
  Combined Statements of Budgetary Resources
  Notes to the Financial Statements

MANAGEMENT’S DISCUSSION AND ANALYSIS OF RESULTS OF
OPERATIONS AND FINANCIAL CONDITION ..............................................SECTION 4
   Export-Import Bank of the United States




              SECTION 1 




INDEPENDENT AUDITOR’S REPORT 

                                                                                       Deloitte & Touche LLP
                                                                                       Suite 800
                                                                                       1750 Tysons Boulevard
                                                                                       McLean, VA 22102-4219
                                                                                       USA
                                                                                       Tel: +1 703 251 1000
                                                                                       Fax: +1 703 251 3400
                                                                                       www.deloitte.com




INDEPENDENT AUDITORS’ REPORT
20B




To the Audit Committee, the Board of Directors and the Inspector General of the Export-
Import Bank of the United States:


We have audited the accompanying balance sheets of The Export-Import Bank of the United
States (“Ex-Im Bank”) as of September 30, 2009 and 2008, and the related statements of net
costs, changes in net position, and the combined statements of budgetary resources (collectively
referred to as the “financial statements”) for the years then ended. These financial statements are
the responsibility of Ex-Im Bank’s management. Our responsibility is to express an opinion on
these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in the U.S. Government
Auditing Standards, issued by the Comptroller General of the United States, and Office of
Management and Budget (“OMB”) Bulletin No.07-04, Audit Requirements for Federal
Financial Statements, as amended. Those standards require that we plan and perform the audit to
obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the
purpose of expressing an opinion on the effectiveness of Ex-Im Bank's internal control over
financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements, assessing the accounting principles used and significant estimates made by
management, as well as, evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

      In our opinion, such financial statements present fairly, in all material respects, the financial
      position of Ex-Im Bank as of September 30, 2009 and 2008, and its net cost of operations and
      changes in net position, and budgetary resources for the years then ended in conformity with
      accounting principles generally accepted in the United States of America.

      The accompanying required supplementary information included in the sections entitled
      “Management’s Discussion & Analysis” and “Required Supplementary Information” are not
      required parts of the basic financial statements but are supplementary information required by
      OMB Circular A-136, Financial Reporting Requirements, as amended, and
the Federal Accounting Standards Advisory Board. This supplementary information is the
responsibility of Ex-Im Bank’s management. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and
presentation of required supplementary information. However, we did not audit such
supplementary information and we do not express an opinion on it.

In accordance with U. S. Government Auditing Standards, we have also issued our report dated
November 13, 2009, on our consideration of Ex-Im Bank’s internal control over financial
reporting and on our tests of its compliance with certain provisions of laws, regulations, contracts
and agreements. The purpose of that report is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on internal control over financial reporting or on compliance. That report is an
integral part of an audit performed in accordance with U.S. Government Auditing Standards, and
should be considered in assessing the results of our audits.




McLean, VA
November 13, 2009
         Export-Import Bank of the United States




                    SECTION 2 




INDEPENDENT AUDITORS’ REPORT ON INTERNAL 

CONTROL OVER FINANCIAL REPORTING AND ON 

COMPLIANCE AND OTHER MATTERS BASED UPON 

 THE AUDIT PERFORMED IN ACCORDANCE WITH 

    GOVERNMENT AUDITING STANDARDS . 

                                                                                Deloitte & Touche LLP
                                                                                Suite 800
                                                                                1750 Tysons Boulevard
                                                                                McLean, VA 22102-4219
                                                                                USA
                                                                                Tel: +1 703 251 1000
                                                                                Fax: +1 703 251 3400
                                                                                www.deloitte.com




INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
12B




FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED
UPON THE AUDIT PERFORMED IN ACCORDANCE WITH GOVERNMENT
AUDITING STANDARDS

To the Audit Committee, the Board of Directors, and the Inspector General of the Export-
Import Bank of the United States:
We have audited the financial statements of the Export-Import Bank of the United States (“Ex-
Im Bank”) as of and for the year ended September 30, 2009, and have issued our report thereon
dated November 13, 2009. We conducted our audit in accordance with auditing standards
generally accepted in the United States of America; the standards applicable to financial audits
contained in U.S. Government Auditing Standards, issued by the Comptroller General of the
United States, and Office of Management and Budget (“OMB”) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended.
Internal Control Over Financial Reporting
18B




In planning and performing our audit, we considered Ex-Im Bank’s internal control over
financial reporting in order to determine our auditing procedures for the purpose of expressing
our opinion on the financial statements and not to provide assurance on the internal control over
financial reporting. Our consideration of the internal control over financial reporting would not
necessarily disclose all matters in the internal control over financial reporting that might be
significant deficiencies. Under standards issued by the American Institute of Certified Public
Accountants, significant deficiencies are deficiencies in internal control over financial reporting,
or a combination of deficiencies, that are less severe than a material weakness, yet important
enough to merit attention by those charged with governance. Material weaknesses are
deficiencies, or a combination of deficiencies, such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. We noted no matters involving the internal control over financial
reporting and its operation that we consider to be material weaknesses.
We noted other matters involving the internal control over financial reporting that will be
reported to Ex-Im Bank in a separate letter.
Compliance and Other Matters
19B




As part of obtaining reasonable assurance about whether Ex-Im Bank’s financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts and agreements, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts and certain other laws and
regulations specified in OMB Bulletin No. 07-04 as amended. However, providing an opinion on
compliance with those provisions was not an objective of our audit, and accordingly, we do not
express such an opinion. The results of our tests disclosed no instances of noncompliance or
other matters that are required to be reported under U.S. Government Auditing Standards and
OMB Bulletin No. 07-04 as amended.
This report is intended solely for the information and use of the Audit Committee, the Board of
Directors, the Inspector General and management of Ex-Im Bank, the Office of Management and
Budget, the Government Accountability Office, and the United States Congress and is not
intended to be and should not be used by anyone other than these specified parties.




McLean, VA
November 13, 2009
Export-Import Bank of the United States




           SECTION 3


FINANCIAL STATEMENTS
 Balance Sheets
 Statements of Net Costs
 Statements of Changes in Net Position
 Combined Statements of Budgetary Resources
 Notes to the Financial Statements
Balance Sheets

                                                                                 As of                  As of
(in millions)                                                              September 30, 2009     September 30, 2008
ASSETS

Intragovernmental
     Fund Balance with the U.S. Treasury (Note 2)                                    $1,792.5               $1,744.8
     Receivable from the Program Account (Note 5)                                     1,396.6                  664.7
Total Assets - Intragovernmental                                                      3,189.1                2,409.5

Public
    Cash (Note 3)                                                                         0.5                    0.4
    Loans Receivable, Net (Note 4A)                                                   3,936.3                3,071.2
    Receivables from Subrogated Claims, Net (Note 4E)                                   659.5                  731.7
    Other Assets (Note 10)                                                                7.7                    5.4
Total Assets - Public                                                                 4,604.0                3,808.7

Total Assets                                                                          $7,793.1               $6,218.2
LIABILITIES

Intragovernmental
     Borrowings from the U.S. Treasury (Note 12)                                     $3,805.2               $2,929.1
     Accounts Payable to the U.S. Treasury                                              928.9                  963.3
     Payable to the Financing Account (Note 5)                                        1,396.6                  664.7
Total Liabilities - Intragovernmental                                                 6,130.7                4,557.1

Public
    Payment Certificates (Note 12)                                                       82.7                  104.1
    Claims Payable                                                                       11.8                   11.6
    Guaranteed Loan Liability (Note 4G)                                               2,234.1                1,376.1
    Other Liabilities (Note 13)                                                         176.1                  102.2
Total Liabilities - Public                                                            2,504.7                1,594.0

Total Liabilities                                                                     $8,635.4               $6,151.1


NET POSITION

    Capital Stock                                                                      1,000.0                1,000.0
    Unexpended Appropriations                                                            293.1                  363.3
    Cumulative Results of Operations                                                  (2,135.4)              (1,296.2)
Total Net Position                                                                      (842.3)                  67.1


Total Liabilities and Net Postion                                                     $7,793.1               $6,218.2

The accompanying notes are an integral part of the financial statements.
Statements of Net Costs

(in millions)                                             Loans     Guarantees     Insurance    Total
                For the Year Ended September 30, 2009
Costs
    Interest Expense                                      $256.3           $-          $-       $256.3
    Claim Expenses                                            -           13.4          5.2        18.6
    Provision for Credit Losses                             41.3       1,176.7         87.4     1,305.4
    Broker Commissions                                        -             -           4.0         4.0
Total Costs                                                297.6       1,190.1         96.6     1,584.3

Earned Revenue
    Interest Income                                       (487.5)       (119.9)           -      (607.4)
    Fee & Other Income                                     (21.3)       (257.6)	          -      (278.9)
    Insurance Premium & Other Income                          -             -          (26.1)     (26.1)
Total Earned Revenue                                      (508.8)       (377.5)        (26.1)    (912.4)

Net Excess of Program Costs Over Program (Revenue)        (211.2)        812.6         70.5       671.9

     Administrative Costs (Note 4K)
                                                               84.1
     Liquidating Account Distribution of Income
                                                   46.9

Total Net Excess Costs Over (Revenue) (Notes 16 and 18)                                         $802.9




                                                          Loans     Guarantees     Insurance    Total
                For the Year Ended September 30, 2008
Costs
    Interest Expense                                      $250.8           $-           $-       $250.8
    Claim Expenses                                            -           12.9          5.0       17.9
    Provision for Credit Losses                           (159.7)        322.9	         1.2      164.4
    Broker Commissions                                        -             -           5.4        5.4
Total Costs                                                 91.1         335.8         11.6      438.5

Earned Revenue
    Interest Income                                       (420.2)       (116.9)           -      (537.1)
    Fee & Other Income                                      (2.7)       (252.7)	          -      (255.4)
    Insurance Premium & Other Income                          -             -          (32.7)     (32.7)
Total Earned Revenue                                      (422.9)       (369.6)        (32.7)    (825.2)

Net Excess of Program (Revenue) Over Costs                (331.8)        (33.8)        (21.1)    (386.7)

     Administrative Costs (Note 4K)
                                                               72.5
     Liquidating Account Distribution of Income
                                                  109.7

Total Net Excess (Revenue) Over Costs (Notes 16 and 18)                                         ($204.5)
 Statements of Changes in Net Position

                                                                               For the Year Ended September 30, 2009
                                                                                                     Cumultative
                                                                   Capital          Unexpended        Results of
(in millions)                                                      Stock          Appropriations      Operations       Total

Beginning Net Position                                              $1,000.0              $363.3        ($1,296.2)       $67.1

Budgetary Financing Sources (Uses)
         Appropriations Received - Inspector General                       -                 2.5              -            2.5
         Appropriations Received - Reestimate                              -               570.5              -          570.5
         Rescissions                                                       -               (44.0)             -          (44.0)
         Cancelled Authority                                               -               (10.6)             -          (10.6)
         Transfer In - Debt Reduction Financing                            -                 -                -            -
         Transfer Out Without Reimbursement                                -                 -             (706.6)      (706.6)
         Other Adjustments                                                 -                 2.5             (2.3)         0.2
         Appropriations Used                                               -              (591.1)           591.1          -
         Offsetting Collections                                            -                 -               78.8         78.8
Other Financing Sources
         Imputed Financing                                                 -                 -                2.7          2.7
Total Financing Sources (Uses)                                             -               (70.2)           (36.3)      (106.5)
Adjusted Net Position                                                1,000.0               293.1         (1,332.5)       (39.4)

Less: Excess of Program Costs Over Revenue                                 -                 -             802.9         802.9

Ending Net Position                                                 $1,000.0              $293.1        ($2,135.4)     ($842.3)




                                                                               For the Year Ended September 30, 2008
                                                                                                     Cumultative
                                                                   Capital          Unexpended        Results of
                                                                   Stock          Appropriations      Operations       Total

Beginning Net Position                                              $1,000.0              $460.2        ($1,340.4)      $119.8

Budgetary Financing Sources (Uses)
         Appropriations Received - Inspector General                       -                 1.0              -            1.0
         Appropriations Received - Reestimate                              -               486.6              -          486.6
         Rescissions                                                       -               (25.0)             -          (25.0)
         Cancelled Authority                                               -               (28.4)             -          (28.4)
         Transfer In - Debt Reduction Financing                            -                11.7              -           11.7
         Transfer Out Without Reimbursement                                -                 -             (759.6)      (759.6)
         Other Adjustments                                                 -                 -               (1.4)        (1.4)
         Appropriations Used                                               -              (542.8)           542.8          -
         Offsetting Collections                                            -                 -               57.9         57.9
Other Financing Sources
         Imputed Financing                                                 -                 -                -            -
Total Financing Sources (Uses)                                             -               (96.9)          (160.3)      (257.2)
Adjusted Net Position                                                1,000.0               363.3         (1,500.7)      (137.4)

Less: Excess of Program Revenue over Costs                                 -                 -             (204.5)      (204.5)

Ending Net Position                                                 $1,000.0              $363.3        ($1,296.2)       $67.1

The accompanying notes are an integral part of the financial statements.
 Combined Statements of Budgetary Resources

                                                                                            For the Year Ended                                For the Year Ended
                                                                                           September 30, 2009                                September 30, 2008
                                                                                              Non-Budgetary                                     Non-Budgetary
                                                                                              Credit Reform                                     Credit Reform
(in millions)                                                              Budgetary       Financing Accounts     Total       Budgetary      Financing Accounts     Total
BUDGETARY RESOURCES
Unobligated Balance, Brought Forward October 1                                  $560.2                 $905.5     $1,465.7        $581.2                $1,911.4    $2,492.6
Recoveries of Prior-Year Unpaid Obligations                                       16.2                    4.9         21.1          34.4                      -         34.4
Budget Authority:
     Appropriation                                                                573.0                     -        573.0          487.6                     -        487.6
     Borrowing Authority (Note 17)                                                   -                 4,619.8     4,619.8             -                   664.8       664.8
     Spending Authority from Offsetting Collections                               206.0                2,121.2     2,327.2          250.0                2,147.7     2,397.7
Permanently Not Available                                                         (96.3)              (1,192.9)   (1,289.2)        (186.9)              (2,100.0)   (2,286.9)
Total Budgetary Resources (Note 17)                                            $1,259.1               $6,458.5    $7,717.6       $1,166.3               $2,623.9    $3,790.2


STATUS OF BUDGETARY RESOURCES
Obligations Incurred, Direct (Note 17)                                          $699.7                $5,519.9    $6,219.6        $606.1                $1,718.4    $2,324.5
 Unobligated Balance, Apportioned (Note 17)                                       342.8                  938.6     1,281.4          349.4                  905.5     1,254.9
 Unobligated Balance Not Available (Note 17)                                      216.6                     -        216.6          210.8                     -        210.8
Total Status of Budgetary Resources                                            $1,259.1               $6,458.5    $7,717.6       $1,166.3               $2,623.9    $3,790.2

CHANGE IN OBLIGATED BALANCE
Obligated Balance, Net:
     Unpaid Obligations, Brought Forward October 1                                $89.9                $100.5      $190.4         $123.3                   $35.3     $158.6
Obligations Incurred, Net (Note 17)                                               699.7                5,519.9     6,219.6         606.1                 1,718.4     2,324.5
Gross Outlays                                                                    (676.7)              (2,904.6)   (3,581.3)       (605.1)               (1,653.2)   (2,258.3)
Recoveries of Prior-Year Unpaid Obligations                                       (16.2)                  (4.9)      (21.1)        (34.4)                     -        (34.4)
Total, Unpaid Obligated Balance, Net, End of Period                               $96.7               $2,710.9    $2,807.6         $89.9                 $100.5      $190.4

NET OUTLAYS
     Gross Outlays                                                              $676.7                $2,904.6    $3,581.3        $605.1                $1,653.2    $2,258.3
     Less: Offsetting Collections                                               (206.0)               (2,121.2)   (2,327.2)       (250.0)               (2,147.7)   (2,397.7)
Net Outlays                                                                     $470.7                  $783.4    $1,254.1        $355.1                 ($494.5)    ($139.4)

The accompanying notes are an integral part of the financial statements.
                           Export-Import Bank of the United States 

                              Notes to the Financial Statements 

               For the Years Ended September 30, 2009 and September 30, 2008 



      1. Summary of Significant Accounting and Reporting Policies

ENABLING LEGISLATION AND MISSION
U2B




The Export-Import Bank of the United States (Ex-Im Bank or the Bank) is an
independent executive agency and a wholly-owned U.S. government corporation that
was first organized as a District of Columbia banking corporation in 1934. Ex-Im Bank is
the official export-credit agency of the United States. Ex-Im Bank's operations
subsequent to September 30, 1991, are subject to the provisions of the Federal Credit
Reform Act (FCRA) of 1990 (P.L. 101-508), which became effective October 1, 1991.
The Export-Import Bank Reauthorization Act of 2006 extended the Bank’s charter until
September 30, 2011.

Ex-Im Bank’s mission is to support U.S. exports by providing export financing through
its loan, guarantee and insurance programs in cases where either the private sector is
unable or unwilling to provide financing or where such support is necessary to level the
playing field due to financing provided by foreign governments to their exporters that are
in competition for export sales with U.S. exporters. By facilitating the financing of U.S.
exports, Ex-Im Bank helps companies create and maintain U.S. jobs. The Bank’s
charter requires reasonable assurance of repayment for the transactions it authorizes,
and the Bank closely monitors credit and other risks in its portfolio. In pursuit of its
mission of supporting U.S. exports, Ex-Im Bank offers four financial products: direct
loans, loan guarantees, working capital guarantees and export credit insurance. All Ex-
Im Bank obligations carry the full faith and credit of the U.S. government.

      Ex-Im Bank offers fixed-rate loans directly to foreign buyers of U.S. goods and services.
      Ex-Im Bank extends to a company’s foreign customer a fixed-rate loan covering up to
      85 percent of the U.S. contract value. The buyer must make a cash payment to the U.S.
      exporter of at least 15 percent of the U.S. contract value. Ex-Im Bank's direct loans
      carry the lowest fixed-interest rate permitted for the importing country and term under
      the "Arrangement on Guidelines for Officially Supported Export Credits" negotiated
      among members of the Organisation for Economic Co-operation and Development
      (OECD).

Ex-Im Bank loan guarantees cover the repayment risks on the foreign buyer’s debt
obligations incurred to purchase U.S. exports. Ex-Im Bank guarantees to a lender that,
in the event of a payment default by the borrower, it will pay to the lender the
outstanding principal and interest on the loan. Ex-Im Bank’s comprehensive guarantee
covers all of the commercial and political risks for up to 85 percent of the U.S. contract
value.

Loans and guarantees extended under the medium-term loan program typically have
repayment terms of one to seven years, while loans and guarantees extended under the
long-term loan program usually have repayment terms in excess of seven years.
Generally, both the medium-term and long-term loan and guarantee programs cover up 

to 85 percent of the U.S. contract value of shipped goods. 


Under the Working Capital Guarantee Program, Ex-Im Bank provides repayment 

guarantees to lenders on secured, short-term working capital loans made to qualified 

exporters. The working capital guarantee may be approved for a single loan or a 

revolving line of credit. Ex-Im Bank’s working capital guarantee protects the lender from 

default by the exporter for 90 percent of the loan principal and interest. 


Ex-Im Bank’s export-credit insurance policies help U.S. exporters sell their goods 

overseas by protecting them against the risk of foreign-buyer or other foreign-debtor 

default for political or commercial reasons, allowing them to extend credit to their 

international customers. Insurance policies may apply to shipments to one buyer or 

many buyers, insure comprehensive (commercial and political) credit risks or only 

political risks, and cover short-term or medium-term sales. 


BASIS OF ACCOUNTING

3BU




The format of the financial statements and footnotes is in accordance with form and 

content guidance provided in Office of Management and Budget (OMB) Circular A-136, 

Financial Reporting Requirements, revised as of June 10, 2009. 



USE OF ESTIMATES
4BU




The preparation of financial statements requires management to make estimates and
assumptions that affect the reported amounts of assets and liabilities and disclosure of
contingent assets and liabilities at the date of the financial statements and the reported
amounts of revenues and expenses during the reporting period. The most significant of
these estimates are the allowances for losses on loans receivable, subrogated claims
receivable, and guarantees and insurance. Ex-Im Bank uses its historical default and
recovery experience to calculate loss estimates. Actual results may differ from those
estimates.


LOANS RECEIVABLES, NET
5BU




Loan obligations are carried at principal and interest receivable amounts less an
allowance for credit losses.

      From time to time, Ex-Im Bank extends the repayment date and may modify the interest
      rate of some or all principal installments of a loan because the obligor or country has
      encountered financial difficulty and Ex-Im Bank has determined that providing relief in
      this manner will enhance the ability to collect the loan.

RECEIVABLES FROM SUBROGATED CLAIMS, NET
6BU




Receivables from subrogated claims represent the outstanding balance of payments
that were made on claims that were submitted to Ex-Im Bank in its capacity as
guarantor or insurer under Ex-Im Bank's export guarantee or insurance programs.
Receivables from subrogated claims are carried at principal and interest receivable
amounts less an allowance for claim losses. Under the subrogation clauses in its
guarantee and insurance contracts, Ex-Im Bank receives all rights, title and interest in
all amounts relating to claims paid under insurance policies and guarantees and
therefore establishes an asset to reflect such rights.

ACCRUED INTEREST
7BU




Interest is accrued on loans and claims as it is earned. Generally, loans and subrogated
claims receivable delinquent 90 days or more are placed on a nonaccrual status unless
they are well-secured and significant collections have been received. At the time that a
loan or claim is placed on nonaccrual status, any accrued but unpaid interest previously
recorded is reversed against current-period interest income. The interest on these loans
is accounted for on a cash basis until qualifying for return to accrual status. Loans are
returned to accrual status when all principal and interest amounts contractually due are
brought current and future payments are reasonably assured.

ACCOUNTING FOR CAPITALIZED INTEREST ON RESCHEDULED LOANS AND SUBROGATED CLAIMS
8BU




Rescheduling agreements frequently allow for Ex-Im Bank to add uncollected interest to
the principal balance of rescheduled loans and subrogated claims receivable (i.e.,
capitalized interest). When capitalized, any accrued interest receivable is reversed
against current period’s interest income. The amount of interest that was capitalized and
included in the principal balance is recorded as income when cash collections occur and
only after all principal not related to the capitalized interest is paid. An allowance is
established for all uncollected capitalized interest.

ALLOWANCE FOR LOSSES ON LOANS, GUARANTEES, INSURANCE AND SUBROGATED CLAIMS
9BU




The allowance for losses provides for estimated losses inherent in the loan, claim,
guarantee and insurance portfolios. The allowance is established through a provision
charged to earnings. Write-offs are charged against the allowance when management
believes the uncollectibility of a loan or claim balance is confirmed. Subsequent
recoveries, if any, are credited to the allowance.

The allowance is evaluated on a regular basis by management and is based upon
management’s periodic review of the collectability of the credits in light of historical and
market experience, the nature and volume of the credit portfolio, adverse situations that
may affect the borrower’s ability to repay, estimated value of any underlying collateral,
and prevailing worldwide economic and political conditions. This evaluation is inherently
subjective as it requires estimates that are susceptible to significant revision as more
information becomes available.

The allowance for Ex-Im Bank credit-reform credits represents the amount of estimated
credit loss associated with the applicable credit. The credit loss is defined as the net
present value of estimated loan, guarantee and insurance defaults less subsequent
estimated recoveries. Ex-Im Bank has established cash-flow models for expected
defaults, fees and recoveries to estimate the credit loss for each approved credit. For
new authorizations, the models incorporate Ex-Im Bank’s actual historical loss and
recovery experience.
The net credit loss of credit-reform loans, guarantees and insurance is re-estimated
annually in accordance with OMB guidelines and Statement of Federal Financial
Accounting Standards (SFFAS) 18, “Amendments to Accounting Standards for Direct
Loans and Loan Guarantees”. The re-estimates adjust the allowance for credit losses to
account for actual activity and changes in the financial and economic factors that affect
the repayment prospects over time.


Accounting for Guarantees in a Foreign Currency
71BU




Ex-Im Bank provides guarantees and insurance denominated in certain foreign
currencies. The foreign currencies approved for Ex-Im Bank guarantees as of
September 30, 2009, are: Australian dollar, Brazilian real, British pound, Canadian
dollar, CFA franc, Colombian peso, Egyptian pound, euro, Indian rupee, Indonesian
rupiah, Japanese yen, Korean won, Malaysian ringgit, Mexican peso, Moroccan dirham,
New Zealand dollar, Norwegian krone, Pakistani rupee, Philippine peso, Polish zloty,
Russian ruble, South African rand, Swedish krona, Swiss franc, Taiwanese dollar and
Thai baht. At the time of authorization, Ex-Im Bank records the authorization amount as
the U.S. dollar equivalent of the foreign-currency obligation based on the exchange rate
at that time. At the end of each fiscal year, Ex-Im Bank determines the dollar equivalent
of the outstanding balance for each foreign-currency guarantee based on the exchange
rate at the end of the year and adjusts the guarantee loan liability accordingly.

BORROWINGS FROM THE U.S. TREASURY
10BU




The main source of Ex-Im Bank's outstanding debt is borrowings from the U.S.
Treasury. Borrowings from the U.S. Treasury are used to finance medium-term and
long-term loans. These borrowings carry a fixed rate of interest. They are further
discussed in Note 12.

PAYMENT CERTIFICATES
1BU




Payment certificates represent Ex-Im Bank's outstanding borrowings related to specific
claims for which Ex-Im Bank is paying the guaranteed lender as the guaranteed
installments become due. Payment certificates are issued by Ex-Im Bank in exchange
for the foreign importer’s defaulted note which was guaranteed by Ex-Im Bank and the
payment certificates carry the same repayment terms and interest rate as the
guaranteed foreign importer’s note. Payment certificates are backed by the full faith and
credit of the government and are freely transferable.

CLAIMS PAYABLE
12BU




Liabilities for claims arising from Ex-Im Bank's guarantee and insurance activities and
the related estimated losses and claim recovery expenses are accrued upon approval of
a claim.

AMOUNTS PAYABLE TO THE U.S. TREASURY
13BU




Amounts payable to the U.S. Treasury include the results of the credit-loss re-estimate
required under the FCRA. The payable represents funds that are held in credit-reform
financing accounts that are determined to be in excess of amounts needed to cover
future defaults. The payable also includes expired appropriations no longer available for
obligation that will be returned to the U.S. Treasury.


Fees and Premia
U




Ex-Im Bank charges a risk-related exposure fee under both the loan and guarantee
programs that is collected on each loan disbursement or shipment of goods under the
guarantee policy.


On working capital guarantees, Ex-Im Bank charges an up-front facility fee, which, due
to the short-term nature of the contracts, is credited to income as collected. Premia
charged under insurance policies are recognized as income using a method that
generally reflects the exposure over the term of the policy.

APPROPRIATED CAPITAL
14BU




Appropriations received by Ex-Im Bank pursuant to the FCRA are recorded as paid-in-
capital. Beginning in FY 2008, fees collected in excess of expected credit losses are
used to reimburse the U.S. Treasury for appropriations provided for program and
administrative costs, resulting in a net appropriation of zero. Appropriations received
prior to FY 2008 and not required to finance credit activities are returned to the U.S.
Treasury when the period of availability ends.


       Congress has appropriated certain sums specifically for Ex-Im Bank’s tied-aid activities.
       Tied-aid is government-to-government concessional financing of public sector capital
       projects in developing countries. Tied-aid terms usually involve total maturities longer
       than 20 years, lower than market interest rates and/or direct grants.

U      Imputed Financing
       A financing source is imputed by Ex-Im Bank to provide for pension and other
       retirement benefit expenses recognized by Ex-Im Bank but financed by the Office of
       Personnel Management (OPM).

U      Liquidating Account Distribution of Income
       Ex-Im Bank maintains a liquidating account which accumulates the repayment on loans
       issued prior to the FCRA and any collections on claims. At the end of each fiscal year,
       Ex-Im Bank transfers the cash balance in this account to the U.S. Treasury. The amount
       transferred is detailed on the accompanying Statements of Net Costs.

U      Reclassifications
       Certain prior year amounts have been reclassified to conform to classifications adopted
       in FY 2009. This reclassification had no impact on Ex-Im Bank’s results of operations.
2. Fund Balance with the U.S. Treasury

Fund balances as of September 30, 2009 and September 30, 2008 were as follows:

(in millions)                                                  FY 2009       FY 2008
Revolving Funds                                                $1,099.5      $1,011.8
General Funds - Unexpended Appropriations                         515.6         631.0
General Funds - Offsetting Collections                            144.9          64.9
Other Funds - Unallocated Cash                                     32.5          37.1
      Total                                                    $1,792.5      $1,744.8

Status of Fund Balance with the U.S. Treasury
 Unobligated Balance
    Available                                                  $1,281.4      $1,254.9
    Expired                                                       216.6         210.8
    Canceled and Unavailable                                       28.1          51.6
  Obligated Balance Not Yet Disbursed                             233.9         190.4
   Funds Pending Application                                       32.5          37.1
     Total                                                     $1,792.5      $1,744.8

Revolving funds are credit-reform financing accounts and cash balances in the pre-
credit-reform revolving fund. Included in the credit-reform financing accounts are
disbursed appropriations, exposure fees collected, and interest paid by the U.S.
Treasury to Ex-Im Bank on the balances in the account. These funds are available to
cover losses in Ex-Im Bank’s credit programs. Unexpended appropriated funds and
unexpended offsetting collections are deposited in a noninterest-bearing account at the
U.S. Treasury. These funds are available to Ex-Im Bank when the credit activity to
which they relate takes place or to finance administrative expenses. Upon disbursement
of the related loans or shipment of goods under guarantee or insurance policies, the
funds become available to either subsidize the related loan disbursement or to be
invested in the credit-reform financing accounts to fund the credit costs of the guarantee
and insurance policies. Unallocated cash represents collections pending final
application to the applicable loan or guarantee.


Unobligated available funds represent unexpired appropriations and funds held in
credit-reform financing accounts for payment of future guaranteed loan defaults.
Unobligated expired funds represent appropriations that are no longer available for new
obligations. Unobligated canceled funds represent appropriations that are no longer
available and are returned to the U.S. Treasury in subsequent years.


As of September 30, 2009, and September 30, 2008, there were no unreconciled
differences between U.S. Treasury records and balances reported on Ex-Im Bank’s
general ledger.
3. Cash

As of September 30, 2009, and September 30, 2008, there was $0.5 million and $0.4
million in cash balances, respectively, held outside the U.S. Treasury. The amount
represents lockbox receipts for collection of insurance premia that are transferred to one
of Ex-Im Bank’s U.S. Treasury accounts upon application to the appropriate credit.


4. Direct Loans and Loan Guarantees, Nonfederal Borrowers

A. Direct Loan, Loan Guarantees and Export-Credit Insurance Programs

Ex-Im Bank offers fixed-rate loans directly to foreign buyers of U.S. goods and services.
Ex-Im Bank extends to a company’s foreign customer a fixed-rate loan covering up to
85 percent of the U.S. contract value. The buyer must make a cash payment to the U.S.
exporter of at least 15 percent of the U.S. contract value. Ex-Im Bank's direct loans
carry the lowest fixed-interest rate permitted for the importing country and term under
the "Arrangement on Guidelines for Officially Supported Export Credits" negotiated
among members of the OECD.

Ex-Im Bank loan guarantees cover the repayment risks on the foreign buyer’s debt
obligations incurred to purchase U.S. exports. Ex-Im Bank guarantees to a lender that,
in the event of a payment default by the borrower, it will pay to the lender the
outstanding principal and interest on the loan. Ex-Im Bank’s comprehensive guarantee
covers all of the commercial and political risks for 85 percent of the U.S. contract value.

Ex-Im Bank’s export-credit insurance helps U.S. exporters sell their goods overseas by
protecting them against the risk of foreign-buyer or other foreign-debtor default for
political or commercial reasons, allowing them to extend credit to their international
customers. Insurance policies may apply to shipments to one buyer or many buyers,
insure comprehensive (commercial and political) credit risks or only political risks, and
cover short-term or medium-term sales.


Credit Reform
The primary purpose of the FCRA is to measure more accurately the cost of federal
credit programs and to place the cost of such credit programs on a basis equivalent with
other federal spending.

OMB established The Interagency Country Risk Assessment System (ICRAS) to
provide a framework for uniformly measuring country risk for the U.S. government’s
international credit programs across the various agencies that administer them. The
ICRAS methodology determines the risk levels for lending to both sovereign
governments and non-sovereign borrowers.
ICRAS rates every country to which U.S. government agencies have outstanding loans
or loan guarantees or are anticipating making new credits available. ICRAS rates
countries on the basis of economic and political/social variables. There are 11 sovereign
and nine non-sovereign risk categories and ICRAS currently has risk ratings for 198
markets. Each country receives two ratings: a sovereign-risk rating and a private-risk
rating.

FY 2009 and FY 2008 Activity
Ex-Im Bank received a $2.5 million appropriation in FY 2009 and $1.0 million in FY
2008 for the Inspector General administrative costs.


Beginning in FY 2008, fees collected in excess of expected credit losses (offsetting
collections) are used to cover the Bank’s credit program needs for providing new direct
loans, guarantees and insurance and for administrative costs.


The following table summarizes offsetting collections and appropriations received and
used in FY 2009 and in FY 2008:

(in millions)                                                FY 2009    FY 2008
RECEIVED AND AVAILABLE
  Appropriation for Inspector General Administrative Costs      $2.5       $1.0
  Offsetting Collections                                       156.5      122.8
  Total Received                                               159.0      123.8

 Unobligated Balance Carried Over from Prior Year              343.7      346.8
 Recission of Unobligated Balances                             (44.0)     (25.0)
 Cancellations of Prior-Year Obligations                          4.3        2.8
Total Available                                                463.0      448.4

OBLIGATED
 For Credit Program Costs Excluding Tied Aid                    29.2       25.4
 Credit Modifications & Other                                    0.4       -
 For Credit-Related Administrative Costs                        81.8       78.9
 Subtotal                                                      111.4      104.3
 For Tied Aid                                                    7.8         -
Total Obligated                                                119.2      104.3

UNOBLIGATED BALANCE
 Unobligated Balance                                           343.8      344.1
 Unobligated Balance Lapsed                                    (18.2)      (0.4)
Remaining Balance                                             $325.6     $343.7



Of the remaining balance of $325.6 million at September 30, 2009, $27.9 million is
available until September 30, 2010; $44.7 million is available until September 30, 2011;
$75.0 million is available until September 30, 2012; and $178.0 million is available until
expended and may be used for tied aid.

New loans, guarantees and insurance result in a program cost (or subsidy cost) when
the net present value of expected cash disbursements exceeds expected cash receipts.
Cash receipts typically include fees or premia, loan principal and interest, and cash
disbursements typically include claim payments and loan disbursements. For new
authorizations, Ex-Im uses both its own historical default and recovery rates in its cash
flow models to calculate program cost.

When the present value of expected cash receipts exceeds the present value of
expected cash disbursements, a "negative" credit subsidy (or program revenue) arises.
In FY 2009 and FY 2008, Ex-Im Bank operated on a self-sustaining basis using
program revenue to fund current year administrative expenses and program costs.
During FY 2009, Ex-Im Bank collected $292.1 million of receipts in excess of estimated
credit losses. Of these offsetting collections, $81.5 million was used to fund
administrative expenses, $135.6 million was returned to the U.S. Treasury, and $75.0
million was retained and carried over to FY 2010. During FY 2008, Ex-Im Bank collected
$122.8 million of receipts in excess of estimated credit losses. Of these offsetting
collections, $78.0 million was used to fund administrative expenses while $44.8 million
was retained and carried over to FY 2009. FY 2009 and FY 2008 program costs were
obligated from available prior year budget authority.

Administrative costs are the costs to administer and service Ex-Im Bank's entire credit
portfolio. The program costs are obligated to cover the estimated credit losses at the
time loans, guarantees and insurance are committed. As the loans are disbursed, or
when the insured or guaranteed event has taken place (generally when the related
goods are shipped), the obligated amounts are used to cover the estimated costs of the
credit losses related to the disbursements and shipments. The portion of the obligated
amounts related to Ex-Im Bank's lending programs is used to partially fund the loan
disbursements, while the portions related to Ex-Im Bank's guarantee and insurance
programs are invested in an interest-bearing account with the U.S. Treasury. Prior to
loan disbursement or the insured or guaranteed event, all of the appropriated funds and
offsetting collections are held in a non-interest-bearing U.S. Treasury account.


Allowance for Loss
The process by which Ex-Im Bank determines its allowance for loss for each fiscal year
involves assessing the repayment risk of the credit, which includes both commercial and
political risk factors, then calculating the loss reserve based on the percentage of loss
associated with the risk level assigned to the credit.

Sovereign risk is associated with an obligor that conveys the full faith and credit of its
country. To rate sovereign obligors, Ex-Im Bank relies on the risk levels assigned to
sovereign countries by ICRAS.
Non-sovereign obligors are divided into four categories for risk assessment purposes:
(1) obligors in workout status; (2) obligors rated by third-party rating agencies, such as,
Standard & Poor’s and Moody’s; (3) obligors not rated but publicly traded on local
exchanges; and (4) obligors neither rated nor publicly traded on local exchanges.

After the political and commercial risks of the transaction are assessed, the transaction
is assigned a risk rating based on the standard ICRAS classification. A major
determinant of the risk rating is the sovereign-risk rating of the country in which the
obligor is located. Credit enhancements such as the availability of liens and off-shore
escrow accounts are taken into account.

For pre-credit-reform, nonimpaired loans receivable, Ex-Im Bank determines the
allowance using historical default and recovery rates. The allowance for losses on this
exposure is calculated using the credit loss estimate method. Consistent with industry
practice in the private sector, this is an estimate of the loss expected due to credit risk
and does not include non-credit factors that are included in the fair-market value
method.

Loss reserves on pre-credit-reform impaired credits are determined using the fair-value
method. Ex-Im Bank generally considers a credit impaired if it meets one or more of the
following: (1) delinquent loans and claims with an amount of $50,000 or more past due
at least 90 days, (2) rescheduled loans and rescheduled claims, or (3) nondelinquent
loans and claims above a certain risk rating.
The allowance for losses on pre-credit-reform contingent liabilities for long-term
guarantees is determined using the fair-value method.

The allowance for losses for credit-reform loans, guarantees and insurance are
determined by the credit loss calculated at authorization and subsequent adjustments
made to the allowance as a result of the annual re-estimate.

Credit Loss Re-Estimate
Because financial and economic factors affecting the repayment prospects change over
time, the net estimated credit loss of the outstanding balance of loans, guarantees and
insurance is re-estimated annually in accordance with OMB guidelines and SFFAS 18.
This re-estimate indicates the appropriate balance necessary in the financing accounts
to ensure sufficient funds to pay future estimated claims.


Ex-Im Bank uses its actual historical default and recovery rates to calculate the re-
estimated future credit losses. In the event that the balance in the financing accounts
exceeds the re-estimate level, the difference will not be needed to cover future
estimated claims and will be returned to the U.S. Treasury. In the event that the balance
in the financing accounts is less than the re-estimate level, the FCRA provides that the
difference will be transferred to Ex-Im Bank from a general appropriation account
authorized for this purpose.
The current economic environment has caused Ex-Im Bank to re-evaluate the methods
used for calculating the reserves needed to cover expected losses. In FY 2010, the
Bank used historical experience to estimate the probability of default as well as the loss
given default. The probability of default (PD) is the likelihood that a transaction would
go into default where the loss given default (LGD) gives the estimated loss, net of
recoveries and expenses, if a default occurred. Multiplying together gave the bank
expected loss factors across programs and BCL categories. The FY 2010 loss factors,
developed before the onset of the financial crisis and global recession used the mid
point as the predictor for probability of default. For a non-crisis/’normal’ year, the Bank
believes that the mid point is the best predictor for probability of loss. In the Bank’s
analysis, a crisis year, evidenced by current severe recession, which our historical
experience does not capture, the Bank felt a more conservative estimate was required
to predict losses.

For the FY 2011 loss factors, the Bank again relied on our historical experience adding
another year of data compared to the FY 2010 loss factors. However, instead of using
the mid point for probability of default, the Bank used 95% predictor interval to set the
upper limit. This implies that for the newly reported default probabilities, there remains
at most a 5 percent likelihood that for a given BCL and product category, the actual
probability of default would exceed the numbers shown. Loss given default does not
change and remains based on historical experience. The Bank does not expect any
changes and has not seen any evidence to expect a change in our historical experience
for loss given default. As a result the probability of default significantly increased,
resulting in higher overall loss factors. This methodology has the benefit of being based
on the Bank’s historical experience but allows for a more conservative loss factor.

As of September 30, 2009, a re-estimate of the credit loss of the outstanding balances
of FY 1992 through FY 2009 commitments indicated that a net of $595.4 million
additional funds are needed in the financing accounts. This amount is included in the
Receivable from Program Account on the Balance Sheet.


As of September 30, 2008, a re-estimate of the credit loss of the outstanding balances
of FY 1992 through FY 2008 commitments indicated that of the balances in the
financing accounts, the net amount of $128.0 million was no longer needed to cover
commitments and was due to the U.S. Treasury. This amount is included in the
Amounts Payable to the U.S. Treasury on the Balance Sheet.


Subsequent to September 30, 2007, the re-estimate was adjusted using updated
interest assumptions in conjunction with the preparation of the FY 2009 President’s
Budget request to Congress. As a result, it was determined that an additional net
amount of $53.4 million in the financing accounts was no longer needed to cover
estimated future losses and was paid to the U.S. Treasury in FY 2008.
Direct Loans
Ex-Im Bank's loans receivable, as shown on the Balance Sheet, are net of an allowance
for loan losses.

To calculate the allowance for loan losses for direct loans obligated prior to FY1992,
each of the 11 risk levels is identified with a loss percentage to determine the overall
allowance for credit losses as described above. In addition, certain credits and
capitalized interest included in gross loans receivable are reserved at 100 percent. At
September 30, 2009, and September 30, 2008, capitalized interest on credits obligated
prior to FY 1992 was $239.8 million and $257.5 million, respectively. The total
allowance for direct loans obligated prior to FY 1992, including capitalized interest,
equaled 76.9 percent and 59.0 percent, respectively, of gross loans and interest
receivable. Excluding capitalized interest from the pre-credit-reform receivable balance
and from the loss reserve yields an allowance of 63.3 percent and 33.0 percent,
respectively, of loans and interest receivable.

The allowance for loss calculated for direct loans obligated since the commencement of
FY 1992 equals the amount of credit loss incurred to support the loan obligation. The
credit loss is the amount of loss estimated to be incurred on the transaction, as
previously described. At September 30, 2009, and September 30, 2008, the allowance
for loan losses on credit-reform credits equaled 18.7 percent and 22.3 percent,
respectively, of the outstanding loans and interest receivable balance.

At September 30, 2009, and September 30, 2008, the allowance for both pre-credit-
reform and credit-reform loans equaled 25.8 percent and 28.0 percent, respectively, of
the total loans and interest receivable. Excluding capitalized interest from the total
receivable balance and from the total loss reserve yields an allowance of 22.3 percent
and 23.4 percent, respectively, of loans and interest receivable.

The outstanding balances related to rescheduled installments included in loans
receivable at September 30, 2009 and September 30, 2008, were $1,244.3 million and
$1,032.8 million, respectively. Loan principal installments of $5.7 million and $0.5 million
were rescheduled during FY 2009 and FY 2008, respectively. Loan installments of
interest rescheduled in FY 2009 and FY 2008 were $35.4 million and $2.8 million,
respectively. The interest rate on rescheduled loans is generally a floating rate of
interest, which is 50.0 basis points over the six-month U.S. Treasury rate.
The net balance of loans receivable at September 30, 2009, and September 30, 2008,
consists of the following:
                                     Loans                    Allowance      Value of Assets
                                   Receivable    Interest      for Loan         Related to
FY 2009 (in millions)                Gross      Receivable      Losses      Direct Loans, Net
Loans Obligated Prior to FY 1992        $607.9        $38.1       ($497.0)              $149.0
Loans Obligated After FY 1991           4,603.4        54.6         (870.7)            3,787.3
    Total                             $5,211.3        $92.7     ($1,367.7)            $3,936.3

                                      Loans                  Allowance     Value of Assets
                                    Receivable    Interest    for Loan        Related to
FY 2008 (in millions)                 Gross      Receivable    Losses     Direct Loans, Net
Loans Obligated Prior to FY 1992         $636.0        $28.0     ($391.8)             $272.2
Loans Obligated After FY 1991            3,538.6        61.6      (801.2)            2,799.0
    Total                               $4,174.6       $89.6 ($1,193.0)             $3,071.2

(in millions)                                                     FY 2009          FY 2008
Direct Loans Disbursed During Year (Post-1991)                    $1,446.9           $56.0




B. Program Cost and Re-Estimate Expense for Direct Loans by Component

The table below discloses the interest, defaults, fees and re-estimate amounts
associated with program cost disbursed in the current fiscal year on loan authorizations
made in the current and prior fiscal years and the current year loss re-estimate.

 (in millions)                                                          FY 2009       FY 2008
 Interest                                                                ($20.3)         $0.2
 Defaults                                                                    9.7           0.2
 Fees and Other Collections                                               (74.8)         (0.3)
    Total                                                                ($85.4)         $0.1

 Net Re-estimate – Principal                                             (125.3)        (40.7)
 Net Re-estimate – Interest                                               (52.1)        (69.9)
   Total Net Re-estimate                                                ($177.4)      ($110.6)

 Total Direct Loan Program Cost & Re-Estimate Expense                   ($262.8)      ($110.5)
C. Program Cost Rates for Direct Loans by Component

The program cost rates disclosed below relate to the percentage of program cost
authorized in the current year on loan authorizations made in the current fiscal year.
Because these rates only pertain to authorizations from the current year, these rates
cannot be applied to loan disbursements in the current reporting year to yield the
program cost, which could result from disbursements of loans from both current and
prior-years.

                                                              FY 2009      FY 2008
 Interest                                                     (5.35)%        1.40%
 Defaults                                                       2.08%        1.73%
 Fees and Other Collections                                    (4.01)%    (13.19)%
    Total                                                     (7.28)%     (10.06)%


D. Schedule for Reconciling Direct Loan Allowance Balances

The table below discloses the components of the direct-loan allowance.

 (in millions)                                                FY 2009        FY 2008
 Post-1991 Direct Loans
 Beginning Balance of the Allowance Account                     $801.2        $856.8
   Current-Year Program Cost                                     (85.4)          0.1
  (See Note 4B for Component Breakdown)
   Fees Received                                                  33.3            6.5

   Loans Written Off                                                -           (0.6)

   Program Cost Allowance Amortization                            48.9          41.1

   Miscellaneous Recoveries and Costs                            250.1            7.9

    Ending Balance Before Re-estimate                         $1,048.1        $911.8


  Re-estimate                                                  (177.4)        (110.6)
 Ending Balance of the Allowance Account                       $870.7         $801.2

Program cost allowance amortization is calculated, as required by SFFAS 18,
“Amendments to Accounting Standards for Direct Loans and Loan Guarantees,” as the
difference between interest revenue and interest expense.

E. Defaulted Guaranteed Loans

The allowance for defaulted guaranteed loans is calculated using the fair-market value
method as described above. Capitalized interest included in gross defaulted guaranteed
loans receivable is reserved at 100 percent. At September 30, 2009 and September 30,
2008, capitalized interest was $143.9 million and $129.4 million, respectively. The total
allowance equaled 72.6 percent and 65.9 percent of gross defaulted guaranteed loans
and interest receivable at September 30, 2009, and September 30, 2008, respectively.
Excluding capitalized interest from the receivable balance and from the loss reserve
yields an allowance of 70.9 percent of defaulted loans and interest receivable at
September 30, 2009, and 64.0 percent at September 30, 2008.


                                Defaulted                                  Value of Assets
                               Guaranteed                                    Related to
                                 Loans         Interest      Allowance        Defaulted
                               Receivable,    Receivable      for Loan      Guaranteed
FY 2009 (in millions)            Gross                         Losses        Loans, Net
 Defaulted Guaranteed Loans
 Obligated Prior to FY 1992          $236.3            $-       ($196.6)                 $39.7
    Obligated After FY 1991         2,173.8            1.1     (1,555.1)                 619.8
       Total                       $2,410.1           $1.1    ($1,751.7)                $659.5

                               Defaulted                                   Value of Assets
                              Guaranteed                                     Related to
                                Loans          Interest      Allowance        Defaulted
                              Receivable,     Receivable      for Loan      Guaranteed
FY 2008 (in millions)           Gross                          Losses        Loans, Net
 Defaulted Guaranteed Loans
 Obligated Prior to FY 1992         $270.8            $-        ($200.3)            $70.5
    Obligated After FY 1991        1,874.9            2.8      (1,216.5)            661.2
       Total                      $2,145.7           $2.8     ($1,416.8)           $731.7



F. Guaranteed Loans & Insurance

Ex-Im Bank is exposed to credit loss with respect to the amount of outstanding
guaranteed loans and insurance policies in the event of nonpayment by obligors under
the agreements. The commitments shown below are agreements to lend monies and
issue guarantees and insurance as long as there is no violation of the conditions
established in the credit agreement.

     (in millions)                                                       FY 2009        FY 2008
     Outstanding Principal of Guaranteed Loans and
     Insurance,
          Face Value                                               $42,168.0 $39,888.7
     Undisbursed Principal of Guaranteed Loans and
     Insurance,                                                      U              U




          Face Value                                                 15,499.2           11,892.4
     Total Principal of Guaranteed Loans and Insurance,
          Face Value                                               $57,667.2 $51,781.1

     Amount of Principal Guaranteed and Insured                    $57,667.2 $51,781.1
     Guaranteed Loans and Insurance Disbursed During
     Year,
         Face Value                                             $14,599.4 $12,847.0
     Guaranteed Loans and Insurance Disbursed During
     Year,
         Amount Guaranteed                                      $14,599.4 $12,847.0


G. Liability for Loan Guarantees and Insurance

     (in millions)                                                  FY       FY 2008
                                                                  2009
     Liability for Losses
     On Pre-1992 Guarantees and Insurance                            $4.4         $8.2
     On Post-1991 Guarantees and Insurance                        2,229.7      1,367.9
        Total Liabilities for Loan Guarantees and Insurance      $2,234.1     $1,376.1

Ex-Im Bank has authorized guarantee transactions denominated in a foreign currency
during FY 2009 totaling $1,217.5 million, and authorized $1,618.8 million during FY
2008, as calculated at the exchange rate at the time of authorization. Ex-Im Bank
adjusts the allowance for all transactions denominated in a foreign currency using the
various foreign-currency exchange rates at the end of the fiscal year.


H. Program Cost and Re-Estimate Expense for Loan Guarantees and Insurance by
   Component

The table below discloses defaults, fees and re-estimate amounts associated with the
program cost disbursed in the current year on loan guarantee and insurance
authorizations made in the current and prior fiscal years and the current year loss re-
estimate. The total program cost also includes modifications made on these
authorizations.

     (in millions)                                               FY 2009      FY 2008
     Defaults                                                     $299.8       $546.9
     Fees and Other Collections                                   (488.5)      (516.6)
        Total                                                     (188.7)         30.3

     Net Re-estimate – Principal                                    680.1          48.7
     Net Re-estimate – Interest                                      92.7       (119.5)
       Total Net Re-estimate                                        772.8        (70.8)

        Total Loan Guarantee and Insurance Program Cost            $584.1       ($40.5)
        and Re-Estimate Expense
I. Program Cost Rates for Loan Guarantees and Insurance by Component

The program cost rates disclosed below relate to the percent of program cost
authorized in the current fiscal year on loan guarantee and insurance authorizations
made in the current fiscal year. Because these rates only pertain to authorizations from
the current year, these rates cannot be applied to the guarantees of loans disbursed
during the current reporting year to yield the program cost, which could result from
disbursements of loans from both current and prior years.

                                                                 FY 2009       FY 2008
     Defaults                                                     1.08%          1.36%
     Fees and Other Collections                                  (2.85)%       (3.78)%
       Total                                                     (1.77)%        (2.42)%


J. Schedule for Reconciling the Allowance for Loan Guarantee Balances

The table below discloses the components of the allowance for loan guarantees.

     (in millions)                                                 FY 2009       FY 2008
     Post-1991 Loan Guarantees
     Beginning Balance of the Allowance Account                    $1,367.9      $1,248.9

     Current-Year Program Cost                                       (188.8)           30.1
      Modifications                                                  U   0.1       U    0.2
            Subtotal Program Cost                                    (188.7)           30.3
           (See Note 4H for Component Breakdown)
      Fees Received                                                   269.1         274.1
      Claim Expenses and Write-Offs                                   (14.2)        (12.2)
      Interest Accumulation                                             44.2          66.5
      Adjustments for Purchased Guaranteed Loans                           -        (89.5)
      Other                                                           (21.4)        (79.4)
        Ending Balance Before Re-estimate                           1,456.9       1,438.7
     Re-estimate                                                      772.8         (70.8)
        Ending Balance of the Allowance Account                    $2,229.7      $1,367.9

K. Administrative Expense

     (in millions)                                                 FY 2009       FY 2008
     Total Administrative Expense                                    $84.1         $72.5
L. Allowance and Exposure Summary

(in millions)                                                      FY 2009     FY 2008
Pre-Credit-Reform Allowance
Allowance for Loan Losses                                             $497.0      $391.8
Allowance for Defaulted Guarantees                                    196.6       200.3
Liability for Outstanding Loan Guarantees                               4.4         8.2
                      Total Pre-Credit-Reform Allowance               698.0       600.3

Credit-Reform Allowance
Allowance for Loan Losses                                              870.7       801.2
Allowance for Defaulted Guarantees and Insurance                     1,555.1     1,216.6
Liability for Outstanding Loan Guarantees and Insurance              2,229.7     1,367.9
Liability Related to Undisbursed Loans, Guarantees and Insurance        97.4        94.2
                      Total Credit-Reform Allowance                  4,752.9     3,479.9

Total Loan-Loss Allowance                                            1,367.7     1,193.0
Total Allowance for Guarantees, Insurance and Undisbursed Loans      4,083.2     2,887.2
                    Total Allowance                                 $5,450.9    $4,080.2

Total Exposure                                                     $67,987.8   $58,472.8
Percent Allowance to Exposure                                           8.0%        7.0%

5. Receivable from Program Account

The Receivable from the Program Account of $1,396.6 million at September 30, 2009
and $664.7 million at September 30, 2008 represents program costs related to the
undisbursed principal balance of loans, guarantees and insurance and the amount of
the upward loss re-estimate. The receivable is fully offset by the Payable to the
Financing Account. These amounts are payable to and receivable from different Ex-Im
Bank accounts at the U.S. Treasury and net to zero.

6. Impaired Assets

Ex-Im Bank generally considers a credit impaired if it meets one or more of the
following: (1) delinquent loans, guaranteed loans and claims with an amount of $50,000
or more past due at least 90 days, (2) rescheduled loans, guaranteed loans and
rescheduled claims, or (3) nondelinquent loans, guaranteed loans and claims above a
certain risk rating. As of September 30, 2009 and September 30, 2008, Ex-Im Bank had
$4,100.7 million and $3,428.7 million of total impaired assets, respectively.

7. Nonaccrual of Interest

The weighted-average interest rate on Ex-Im Bank's loan and rescheduled claim
portfolio at September 30, 2009, was 2.74 percent (4.41 percent on performing loans
and rescheduled claims). The weighted-average interest rate on Ex-Im Bank's loan and
rescheduled claim portfolio at September 30, 2008, was 4.24 percent (5.53 percent on
performing loans and rescheduled claims). Interest income is recognized when
collected on nonrescheduled claims.

Generally, the accrual of interest on loans and rescheduled claims is discontinued when
the credit is delinquent for 90 days. Ex-Im Bank had a total of $1,623.0 million and
$727.5 million of loans and rescheduled claims, respectively, in nonaccrual status at
September 30, 2009. Ex-Im Bank had $693.3 million and $462.1 million of loans and
rescheduled claims, respectively, in nonaccrual status at September 30, 2008. Had
these credits been in accrual status, interest income would have been $99.5 million
higher as of September 30, 2009 (amount is net of interest received of $16.9 million),
and $63.5 million higher in FY 2008 (amount is net of interest received of $26.9 million).

8. Statutory Limitations on Lending Authority
0B




Under provisions of the Export-Import Bank Act, as amended in FY 2006, Ex-Im Bank’s
statutory authority currently is limited to $100.0 billion of loans, guarantees and
insurance outstanding at any one time. At September 30, 2009, and September 30,
2008, Ex-Im Bank's statutory authority used was as follows:


                       (in millions)             FY 2009          FY 2008
                       Outstanding Loans          $5,211.3         $4,174.6
                       Undisbursed Loans           2,699.2            371.4
                       Outstanding Claims          2,410.1          2,145.7
                       Guarantees                 48,301.3         45,417.0
                       Insurance                   9,365.9          6,364.1
                       Total                     $67,987.8        $58,472.8


Transactions can be committed only to the extent that budget authority is available to
cover such costs. For FY 2009 and 2008, Congress placed no limit on the total amount
of loans, guarantees and insurance that could be committed in those years, provided
that the statutory authority established by the Export-Import Bank Act was not
exceeded.

     During FY 2009, Ex-Im Bank committed $3,033.3 million for direct loans, $17,987.8
     million for guarantees and insurance, using $29.2 million of budget authority and $7.8
     million of tied aid funds. During FY 2008, Ex-Im Bank committed $356.0 million for direct
     loans, $14,042.9 million for guarantees and insurance, using $25.4 million of budget
     authority.

     For financial statement purposes, Ex-Im Bank defines exposure as the authorized
     outstanding and undisbursed principal balance of loans, guarantees, and insurance. It
     also includes the unrecovered balance of payments made on claims that were
     submitted to Ex-Im in its capacity as guarantor or insurer under the export guarantee
and insurance programs. Exposure does not include accrued interest or transactions
pending final approval. This corresponds to the way activity is charged against the
Bank’s overall $100 billion lending limit imposed by Section 6(a)(2) of Ex-Im Bank’s
Charter.

Working Capital Guarantees may be approved for a single loan or a revolving line of
credit, with an availability generally of one year. Guaranteed lenders do not report
activity to Ex-Im, the entire credit is assumed to be “disbursed” when the fee is paid to
Ex-Im. The credit is recorded as repaid in one installment six months after the expiry
date of the credit unless the Controller’s office is notified before that time that a claim
has been paid. Under the assumption that the exporter is using the credit up to the end
of the expiry period, six months provides sufficient time for the guaranteed lender to
report defaults to Ex-Im in the event that the exporter does not repay the credit. If a
claim is paid, the remaining outstanding balance of the credit associated with the claim
is reduced to zero. Exposure is then reflected as an unrecovered claim.

     Since there is typically a delay in reporting shipments under the insurance program,
     undisbursed balances remain on the books for 120 days after the expiry date to allow
     for the posting of shipments that took place within the period covered by the policy but
     were reported after the expiry date. These unreported shipments pose some liability in
     the form of claims that have been incurred but not yet reported (IBNR). Leaving the
     policy open past the expiry date provides a reserve for IBNR.


1B   9. Concentration of Risk

     Ex-Im Bank support is available to U.S. businesses exporting to countries around the
     world. The Bank’s portfolio is concentrated more heavily in some regions, industries and
     obligors than others. In reviewing each transaction, Ex-Im Bank considers the option of
     using various credit enhancements to support its standard for a reasonable assurance
     of repayment. Various types of collateral, including liens on commercial aircraft, may or
     may not be appropriate or available in support of a credit.


     The volatility in commodity prices, the fluctuation in currency exchange rates, and the
     tightening of credits markets may have an impact on borrowers’ ability to service their
     obligations. Ex-Im Bank closely monitors the portfolio and makes appropriate rating
     adjustments and loss reserve adjustments as necessary.
The following tables summarize Ex-Im Bank’s total exposure by geographic region as of
September 30, 2009 and September 30, 2008.


Total Exposure:


2009 (in millions)
Region                         Amount      Percentage
Asia                           $28,271.2        41.6%
Latin America & Caribbean       14,222.2        20.9%
Europe                           6,897.2        10.1%
North America                    6,136.1         9.0%
Africa                           4,555.8         6.7%
Oceania                          1,394.5         2.1%
All Other                        6,510.8         9.6%
 Total                         $67,987.8       100.0%




2008 (in millions)
Region                         Amount      Percentage
Asia                           $23,925.6        40.9%
Latin America & Caribbean       13,618.1        23.3%
Europe                           6,447.1        11.0%
North America                    5,152.2         8.8%
Africa                           4,011.0         6.9%
Oceania                          1,135.0         1.9%
All Other                        4,183.8         7.2%
 Total                         $58,472.8       100.0%




The following tables summarize Ex-Im Bank’s total exposure by industry as of
September 30, 2009 and September 30, 2008.


2009 (in millions)
Industry                      Amount       Percentage
 Air Transportation            $33,203.0         48.8%
 Oil and Gas                     8,014.7        11.8%
 Manufacturing                   4,614.5          6.8%
 Power Projects                  4,448.5          6.5%
 All Other Total                17,707.1         26.1%
  Total                        $67,987.8       100.0%
2008 (in millions)
Industry                                 Amount Percentage
Air Transportation                     $27,671.2    47.3%
Oil and Gas                              7,482.6    12.8%
Manufacturing                            4,915.9     8.4%
Power Projects                           3,830.1     6.6%
All Other                               14,573.0    24.9%
  Total                                $58,472.8   100.0%




At September 30, 2009 and September 30, 2008, Ex-Im Bank’s five largest (public and
private) obligors made up 23.6 percent and 20.6 percent of the credit portfolio,
respectively.


2009 (in millions)
Obligor                                      Amount    Percentage
Pemex                                       $5,342.4        7.9%
Various Government Entities of India         3,650.9        5.4%
Ryanair Ltd.                                 2,793.6        4.1%
Emirates Airlines                            2,673.6        3.9%
Korean Air Lines                             1,550.1        2.3%
All Other                                   51,977.2       76.4%
Total                                      $67,987.8      100.0%




2008 (in millions)
Obligor                                    Amount Percentage
Pemex                                     $4,722.3     8.1%
Ryanair Ltd.                               2,780.0     4.8%
Various Government Entities of India       1,661.4     2.8%
Emirates Airlines                          1,519.5     2.6%
Westjet Airlines                           1,323.9     2.3%
All Other                                 46,465.7    79.4%
Total                                    $58,472.8   100.0%
The largest exposures by program by country are as follows as of September 30, 2009
and September 30, 2008:


Loans Outstanding and Undisbursed:


2009 (in millions)
Country                        Amount    Percentage
Brazil                        $1,083.2       13.7%
Mexico                         1,050.0       13.3%
Saudi Arabia                     912.8       11.5%
Indonesia                        857.6       10.9%
All Other                      4,006.9       50.6%
 Total                        $7,910.5      100.0%




2008 (in millions)
Country                        Amount    Percentage
Brazil                        $1,178.7       25.9%
Indonesia                      1,021.3       22.5%
China                            661.7       14.6%
Ghana                            344.2        7.7%
All Other                      1,340.1       29.3%
 Total                        $4,546.0      100.0%
Subrogated Claims:

2009 (in millions)
Country                 Amount Percentage
Mexico                  $469.5         19.5%
Congo                    404.3         16.8%
Indonesia                391.1         16.2%
Serbia                   130.1          5.4%
All Other               1,015.1        42.1%
 Total                 $2,410.1       100.0%


2008 (in millions)
Country               Amount      Percentage
Indonesia             $445.9          20.8%
Mexico                 408.0          19.0%
Serbia                 135.5           6.3%
Philippines            109.4           5.1%
All Other             1,046.9         48.8%
 Total               $2,145.7        100.0%
Guarantees and Insurance:



2 009 (in million s)
C ou ntry                       Am oun t Pe rcen ta ge
Me xico                       $ 6,26 5.7        10 .9 %
Ind ia                         5,83 8.2         10 .1 %
Ire land                       3,23 8.3           5 .6 %
U nited Arab Emirate           3,14 8.5           5 .5 %
All Other                     3 9,17 6.5         67 .9 %
 Total                       $5 7,66 7.2       1 00 .0 %



2008 (in millions)

C ou ntry                 Amount           Percenta ge

Mexico                     $6,818 .1            13.2%
India                       3,840 .4             7.4%
Irela nd                    2,785 .5             5.4%
C an ada                    2,435 .6             4.7%
All Other                  35,901 .5            69.3%
 To tal                   $51,781 .1          100.0%



10. Other Assets

     (in millions)                                                 FY 2009     FY 2008
     Commitment Fee Receivables                                       $5.9        $3.5
     Other                                                              1.8        1.9
         Total Other Assets                                            $7.7       $5.4


Commitment fees are charged on the undisbursed, unexpired balance of loans and
certain guarantees. The Other category includes miscellaneous accounts receivable.

11. Liabilities Not Covered by Budgetary Resources

Liabilities not covered by budgetary resources are included in Other Liabilities on the
Balance Sheet as follows:

         (in millions)                                            FY 2009       FY 2008
          Accrued Unfunded Annual Leave                               $3.4          $3.0
Ex-Im Bank's liability to employees for accrued annual leave, included in other liabilities,
was $3.4 million as of September 30, 2009 and $3.0 million as of September 30, 2008.
The liability will be paid from future administrative expense budget authority.


12. Debt

Ex-Im Bank’s outstanding borrowings come from two sources: direct borrowing from
the U.S. Treasury, and the assumption of repayment obligations of defaulted
guarantees under Ex-Im Bank’s guarantee program via payment certificates.

Ex-Im Bank’s total debt at September 30, 2009, and September 30, 2008, is as follows:

     (in millions)                                                  FY 2009     FY 2008
     U.S. Treasury Debt
       Beginning Balance                                           $2,929.1     $4,364.2
       New Borrowings                                                2,069.0        664.9
       Repayments                                                  (1,192.9)    (2,100.0)
        Ending Balance                                             $3,805.2     $2,929.1


     Debt Held by the Public
      Beginning Balance                                              $104.1       $140.7
      New Borrowings                                                     5.7          9.4
      Repayments                                                      (27.1)       (46.0)
       Ending Balance                                                 $82.7       $104.1

     Total Debt                                                    $3,887.9     $3,033.2

Ex-Im Bank had $3,805.2 million of borrowings outstanding with the U.S. Treasury at
September 30, 2009, and $2,929.1 million at September 30, 2008, with a weighted-
average interest rate of 5.88 percent at September 30, 2009, and 6.46 percent at
September 30, 2008.


U.S. Treasury borrowings are repaid primarily with the repayments of medium-term and
long-term loans. To the extent repayments on the underlying loans, combined with
commitment and exposure fees and interest earnings received on the loans, are not
sufficient to repay the borrowings, appropriated funds are available to Ex-Im Bank
through the re-estimation process for this purpose. Accordingly, U.S. Treasury
borrowings do not have a set repayment schedule; however, the full amount of the
borrowings is expected to be repaid by FY 2033.

Payment certificates are issued by Ex-Im Bank in exchange for the foreign obligor’s
original note that was guaranteed by Ex-Im Bank on which Ex-Im Bank has paid a claim
and carries the same repayment term and interest rate as the foreign obligor’s note.
Payment certificates are backed by the full faith and credit of the U.S. government and
are freely transferable.

Outstanding payment certificates at September 30, 2009, and September 30, 2008,
were $82.7 million, and $104.1 million, respectively. Maturities of payment certificates at
September 30, 2009, follow:
                            (in millions)
                            Fiscal Year                 Amount
                            2010                         $16.2
                            2011                          14.1
                            2012                          11.7
                            2013                          10.0
                            Thereafter                    30.7
                            Total                        $82.7



The weighted-average interest rate on Ex-Im Bank's outstanding payment certificates at
September 30, 2009, and September 30, 2008, was 4.26 percent and 4.50 percent,
respectively.



13. Other Liabilities

(in millions)                                                      FY 2009    FY 2008
Current
  Funds Held Pending Application                                      $23.4     $28.4
  Administrative Expenses Payable                                       8.4       7.1
  Miscellaneous Accrued Payables                                        1.8       1.8
Non-Current
  Deferred Revenue                                                   142.5       64.9
    Total Other Liabilities                                         $176.1     $102.2

The $142.5 million in FY 2009 and the $64.9 million in FY 2008 represent deferred
revenue in the form of offsetting collections which is available to cover administrative
expenses and program costs.

14. Leases

Ex-Im Bank’s headquarters office space is leased from the General Services
Administration through the Public Buildings Fund. Lease expenses, included in
administrative expenses, were $5.6 million and $4.9 million in FY 2009 and in FY 2008,
respectively. The lease expires on December 31, 2009, and Ex-Im Bank is in the
process of renegotiation.
15. Commitments and Contingencies

PENDING LITIGATION
15BU




As of September 30, 2009, Ex-Im Bank was named in several legal actions, virtually all
of which involved claims under the guarantee and insurance programs. It is not possible
to predict the eventual outcome of the various actions; however, it is management's
opinion that these claims will not result in liabilities to such an extent that they would
materially affect the financial position or results of operations of Ex-Im Bank.

PROJECT FINANCE
16BU




In project-finance transactions, Ex-Im Bank’s support during the construction period is
generally in the form of a direct credit or comprehensive guarantee to the commercial
lender. At the end of the construction period, the borrower in some cases has the
opportunity to convert the commercial guaranteed financing to an Ex-Im Bank direct
loan. As of September 30, 2009, Ex-Im Bank had $490.0 million of such contingent loan
commitments outstanding.

16. Disclosures Related to the Statements of Net Costs

Ex-Im Bank’s Statements of Net Costs lists the costs and revenues associated with
each of the Bank’s lines of business, namely the loan, guarantee and insurance
programs. The intragovernmental and public costs and revenues associated with each
program, and administrative expenses, are disclosed below. Ex-Im Bank does not
allocate administrative expenses by program.
Public Costs and Public Revenue
(in millions)                                                                 Administrative
                                        Loans      Guarantees    Insurance      Expenses       Total

For theYear Ended September 30, 2009
Intragovernmental Costs                  $255.2            $-           $-            $8.6     $263.8
Public Costs                               42.4       1,190.1         96.6            75.5     1,404.6
  Total Costs                             297.6       1,190.1         96.6            84.1     1,668.4

Intragovernmental Revenue                 (64.2)        (40.5)        (0.3)            -        (105.0)
Public Revenue                           (444.6)       (337.0)       (25.8)            -        (807.4)
   Total Revenue                         (508.8)       (377.5)       (26.1)            -        (912.4)

Distribution of Income                                                                            46.9

Net Excess of Program Costs Over (Revenue)                                                     $802.9


For the Year Ended September 30, 2008
Intragovernmental Costs                  $250.8           $-            $-            $5.1     $255.9
Public Costs                             (159.7)        335.8          11.6           67.4      255.1
  Total Costs                              91.1         335.8          11.6           72.5      511.0

Intragovernmental Revenue                 (50.3)        (40.3)        (1.5)            -         (92.1)
Public Revenue                           (372.6)       (329.3)       (31.2)            -        (733.1)
   Total Revenue                         (422.9)       (369.6)       (32.7)            -        (825.2)

Distribution of Income                                                                           109.7

Net Excess of Program (Revenue) Over Costs                                                     ($204.5)

     Intragovernmental costs include interest expense paid to the U.S. Treasury related to
     borrowings associated with the funding of credit-reform direct loans and administrative
     costs paid to other government agencies. Intragovernmental costs were $263.8 million
     in in FY 2009 and $255.9 million in FY 2008. Intragovernmental revenues represent
     interest from the U.S. Treasury on cash balances in the credit-reform financing
     accounts. Intragovernmental revenue was $105.0 million in FY 2009 and $92.1 million
     in FY 2008.

     Ex-Im Bank public costs represent costs which the Bank incurs to support the business
     programs. These costs are comprised primarily of the provision for loss on the loan and
     guarantee portfolio, and administrative expenses paid to the public. Ex-Im Bank public
     revenue represents income items which are generated as a result of operating the loan,
     guarantee and insurance programs. This revenue primarily relates to the fee and
     interest income on the outstanding credits. Ex-Im Bank net public costs totaled $1,404.6
     million in FY 2009 and $255.1 million in FY 2008. Public revenue totaled $807.4 million
     in the FY 2009 and $733.1 million in FY 2008.
17. Disclosures Related to the Combined Statement of Budgetary Resources

Ex-Im Bank’s Combined Statements of Budgetary Resources disclose total budgetary
resources available to the Bank and the status of such resources at September 30,
2009, and September 30, 2008. Activity impacting budget totals of the overall U.S.
government budget is recorded in Ex-Im Bank’s Combined Statements of Budgetary
Resources budgetary accounts. Activity which does not impact budget totals is recorded
in Ex-Im Bank’s Combined Statements of Budgetary Resources nonbudgetary
accounts. As of September 30, 2009, the Bank’s resources in budgetary accounts
totaled $1,259.1 million and $1,166.3 million in FY 2008. The Bank’s resources in
nonbudgetary accounts totaled $6,458.5 million as of September 30, 2009, and
$2,623.9 million in FY 2008.

Adjustments to Beginning Balance of Budgetary Resources
Ex-Im Bank made no adjustments to the beginning budgetary resources during the
periods ended September 30, 2009, and September 30, 2008.

Apportionment Categories of Obligations Incurred
Ex-Im Bank funds are apportioned in Category B, which restricts the use of funds by
program. The amount of Category B apportionments that were obligated in FY 2009 and
FY 2008 totaled $6,219.6 million and $2,324.5 million, respectively.

Permanent Indefinite Appropriations
The FCRA requires an annual re-estimate of the credit loss allowance. In the event that
there is an increase in estimated defaults, there is permanent and indefinite budget
authority available for this purpose. In FY 2009, the Bank received $570.5 million of
permanent indefinite appropriations as a result of the FY 2008 re-estimate. In FY 2008,
the Bank received $486.6 million of permanent indefinite appropriations as a result of
the FY 2007 re-estimate.

Available Borrowing Authority and Terms of Borrowing
Ex-Im Bank in part relies on borrowings from the U.S. Treasury to help fund the Bank’s
loan program. U.S. Treasury borrowings are repaid primarily with the repayments of
medium-term and long-term loans. To the extent repayments on the underlying loans,
combined with commitment and exposure fees and interest earnings received on the
loans, are not sufficient to repay the borrowings, permanent and indefinite appropriated
funds are available to Ex-Im Bank through the re-estimation process for this purpose.
Accordingly, U.S. Treasury borrowings do not have a set repayment schedule; however,
the full amount of the borrowings is expected to be repaid by FY 2033.

For FY 2009 and FY 2008, Ex-Im Bank had $4,619.8 million and $664.8 million in new
borrowings with the U.S. Treasury, respectively.
Unobligated Balances
Unobligated balances at September 30, 2009, and at the end of FY 2008 totaled
$1,498.0 million and $1,465.7 million, respectively. Of the $1,498.0 million, $27.9 million
is available until September 30, 2010; $44.7 million is available until September 30,
2011; $75.0 million is available until September 30, 2012 and $178.0 million is available
until expended and may be used for tied aid. Of the remaining balance of $1,172.4
million, $882.9 million represents the amount in the guarantee and insurance financing
account that is available to cover future defaults, $215.5 million represents the amount
in the loan financing account that is available for future loan disbursements and to repay
U.S. Treasury borrowings, and $74.0 million that is unavailable for new obligations.

Differences between Combined Statements of Budgetary Resources and Budget
of U.S. Government
There are no differences between the budgetary resources listed on Ex-Im Bank’s
statements and the budgetary resources found in the Budget of the U.S. government.

18. Reconciliation of Net Cost of Operations to Budget

The following schedule reconciles the Net Cost of Operations to the Bank’s budgetary
and financial accounting. The reconciliation illustrates the relationship between net
obligations derived from Ex-Im Bank’s budgetary accounts and the net cost of
operations derived from Ex-Im Bank’s proprietary accounts by identifying and explaining
key differences between the two numbers.
                                                                                        For the Year Ended For the Year Ended
(in millions)                                                                           September 30, 2009 September 30, 2008
Resources Used To Finance Activities
Budgetary Resources Obligated
               Obligations Incurred                                                     $          6,219.6    $       2,324.5

                  Less: Spending Authority from Offsetting Collections and Recoveries              2,348.3            2,432.1
                  Net Obligations                                                                  3,871.3             (107.6)
Other Resources
                  Imputed Financing from Costs Absorbed by Others                                      2.7                  -
Total Resources Used To Finance Activities                                              $          3,874.0    $         (107.6)


Resources Used To Finance Items Not Part of Net Cost of Operations
               Change in Budgetary Resources Obligated for Goods, Services, and 

               Benefits Ordered but Not Yet Provided                                    $         (2,617.2) $            (31.8)

               Resources That Fund Expenses in Prior Periods                                        (570.5)             (479.0)

               Budgetary Offsetting Collections and Receipts That Do Not Affect

                Net Cost of Operations
                     - Credit-Program Collections                                                  1,409.2             1,596.6
               Resources That Finance the Acquisition of Assets                                   (2,626.3)           (1,380.9)
               Distribution of Income                                                                 46.9               109.7
Total Resources That Do Not Finance Net Cost of Operations                                        (4,357.9)             (185.4)

Total Resources Used To Finance the Net Cost of Operations                              $           (483.9) $          (293.0)

Components of the Net Cost of Operations That Will Not Require or
Generate Resources in the Current Period
Components Requiring or Generating Resources in Future Periods
               Increase in Other Liabilities                                            $               -   $             0.5
               Allowance Amortization                                                                501.3              444.9
               Provision for Loss--Pre-Credit-Reform Credits                                         184.5             (141.2)
               Downward Re-estimate of Credit-Losses                                                (706.6)            (759.6)
               Upward Re-estimate of Credit-Losses                                                 1,302.1              570.5
               Change in Receivables                                                                  (3.8)              13.3
               Change in Payables                                                                      0.4               (2.0)
Total Components Requiring or Generating Resources in Future Periods                               1,277.9              126.4

Components Not Requiring or Generating Resources
              Revaluation of Assets or Liabilities                                                      -                     -

              Deferral Adjustments                                                                     8.9               (37.9)

Total Components Not Requiring or Generating Resources                                                 8.9               (37.9)




Total Components of Net Cost of Operations That Will Not Require or Generate
Resources in the Current Period                                                         $          1,286.8    $          88.5

Net Cost of Operations                                                                  $            802.9    $        (204.5)
19. Related-Party Transactions

The financial statements reflect the results of contractual agreements with the Private
Export Funding Corporation (PEFCO). PEFCO, which is owned by a consortium of
private-sector banks, industrial companies and financial services institutions, makes
medium-term and long-term fixed-rate and variable-rate loans to foreign borrowers to
purchase U.S. made equipment when such loans are not available from traditional
private sector lenders on competitive terms. Ex-Im Bank’s credit and guarantee
agreement with PEFCO extends through December 31, 2020. Through its contractual
agreements with PEFCO, Ex-Im Bank exercises a broad measure of supervision over
PEFCO's major financial management decisions, including approval of both the terms of
individual loan commitments and the terms of PEFCO's long-term debt issues, and is
entitled to representation at all meetings of PEFCO's board of directors, advisory board
and exporters' council.

PEFCO has agreements with Ex-Im Bank which provide that Ex-Im Bank will (1)
guarantee the due and punctual payment of principal and interest on export loans made
by PEFCO and (2) guarantee the due and punctual payment of interest on PEFCO's
long-term secured debt obligations when requested by PEFCO. Such guarantees,
aggregating $4,998.3 million at September 30, 2009 ($4,208.8 million related to export
loans and $789.5 million related to secured debt obligations) and $4,735.3 million at
September 30, 2008 ($4,091.4 million related to export loans and $643.9 million related
to secured debt obligations), are included by Ex-Im Bank in the total for guarantee,
insurance and undisbursed loans and the allowance related to these transactions is
included in the Guaranteed Loan Liability on the Balance Sheets. Ex-Im Bank received
fees totaling $42.4 million in FY 2009 ($42.2 million related to export loans and $0.2
million related to secured debt obligations) and $35.9 million in FY 2008 ($35.7 million
related to export loans and $0.2 million related to secured debt obligations) for the
agreements, which are included in fee revenue on the Statements of Net Costs.

In addition, Ex-Im Bank purchased approximately $220.0 million of loans from PEFCO
on December 23, 2008. These loans are included in Loans Receivable, Net on the
Balance Sheet.

Ex-Im Bank has significant transactions with the U.S. Treasury. The U.S. Treasury,
although not exercising control over Ex-Im Bank, holds the capital stock of Ex-Im Bank
creating a related-party relationship between Ex-Im Bank and the U.S. Treasury.

20. Contributions to Employee Retirement Systems

All of Ex-Im Bank's employees whose appointments have federal status are covered by
either the Civil Service Retirement System (CSRS) or the Federal Employees
Retirement System (FERS).

In FY 2009 and FY 2008, Ex-Im Bank withheld 7.0 percent of CSRS employees’ gross
earnings. Ex-Im Bank’s contribution was 7.0 percent of employees' gross earnings in
each of those years. This sum was transferred to the CSRS fund from which this
employee group will receive retirement benefits.

For FERS, Ex-Im Bank withheld 0.8 percent of employees' gross earnings in FY 2009
and FY 2008. Ex-Im Bank’s contribution was 11.2 percent of employees' gross earnings
in FY 2009 and FY 2008. This sum was transferred to the FERS fund from which the
employee group will receive retirement benefits. An additional 6.2 percent of gross
earnings, after pre-tax deductions were withheld up to the 2009 limit of $106,800 and
the 2008 limit of $102,000; that sum plus matching contributions by Ex-Im Bank were
sent to the Social Security System from which the FERS employee group will receive
Social Security benefits.

FERS and CSRS employees may elect to participate in the Thrift Savings Plan (TSP).
CSRS and FERS employees may contribute up to $16,500 ($15,500 in FY 2008) of
gross earnings. In addition, FERS employees receive an automatic 1 percent
contribution from Ex-Im Bank. Amounts withheld for FERS employees are matched by
Ex-Im Bank up to 4 percent for a maximum Ex-Im Bank contribution to the TSP of 5
percent.

Total Ex-Im Bank (employer) matching contributions to the TSP, CSRS and FERS for all
employees, included in administrative expenses, were approximately $5.2 million in the
FY 2009 and $5.0 million in FY 2008. Although Ex-Im Bank funds a portion of pension
benefits under the CSRS and FERS relating to its employees and makes the necessary
payroll withholdings for them, it has no liability for future payments to employees under
these programs and does not account for the assets of the CSRS and FERS, nor does
it have actuarial data with respect to accumulated plan benefits or the unfunded pension
liability relative to its employees. These amounts are reported by the OPM for the
Retirement Systems and are not allocated to the individual employers. The excess of
total pension expense over the amount contributed by Ex-Im Bank and its employees
represents the amount of pension expense which must be financed directly by OPM.
Beginning in FY 2009, Ex-Im Bank recognized an imputed cost and an imputed
financing source, calculated using cost factors supplied by OPM, equal to the excess
amount.

OPM also accounts for the health and life insurance programs for current and retired
civilian federal employees. Similar to the accounting treatment afforded the retirement
programs, the actuarial data related to the health and life insurance programs is
maintained by OPM and is not available on an individual-employer basis. Beginning in
FY 2009 Ex-Im Bank recognized an imputed cost and an imputed financing source for
the future cost of these other retirement benefits (ORB) at the time the employee’s
services are rendered. This ORB expense is calculated using cost factors supplied by
OPM and must be financed by OPM.
         Export-Import Bank of the United States




                    SECTION 4 




MANAGEMENT’S DISCUSSION AND ANALYSIS OF 

  RESULTS OF OPERATIONS AND FINANCIAL 

               CONDITION

  Management’s Discussion and Analysis of 

Results of Operations and Financial Condition 





        For the Year Ended September 30, 2009
                                   Executive Summary
                                   U




The Export-Import Bank of the United States (Ex-Im Bank or the Bank) is an independent
executive agency and a wholly-owned U.S. government corporation. Ex-Im Bank is the official
export-credit agency of the United States. Its mission is to support U.S. exports by providing
export financing through its loan, guarantee and insurance programs in cases where the private
sector is unable or unwilling to provide financing or when such support is necessary to level the
playing field due to financing provided by foreign governments to their exporters that compete
with U.S. exporters. By facilitating the financing of U.S. exports, Ex-Im Bank helps companies
create and maintain U.S. jobs. The Bank’s charter requires reasonable assurance of repayment
for the transactions it authorizes, and the Bank closely monitors credit and other risks in its
portfolio.

Ex-Im Bank reports under generally accepted accounting principles in the United States
applicable to federal agencies (government GAAP). Under government GAAP standards, Ex-Im
Bank’s net excess costs over revenue for fiscal year (FY) 2009 was $802.9 million and net
excess revenue over costs for FY 2008 was $204.5 million. The largest driver of the increase in
net excess costs was the increase in reserves which are used to cover potential credit losses at the
end of FY 2009.

Ex-Im Bank authorized $21,021.1 million of loans, guarantees, and insurance for FY 2009 in
support of an estimated $26,440.8 million of U.S. export sales. This is a 46.0 percent increase
over FY 2008 authorizations of $14,398.9 million, and the highest level of authorizations in any
fiscal year of the Bank’s 75 year history. This change stems from an increase in demand driven
primarily by the lack of available private sector liquidity and the Bank’s ability to respond to the
resulting financing gaps. Over the past five fiscal years, annual authorizations have ranged from
$12,150.5 million to $21,021.1 million, in support of estimated U.S. export sales of $16,041.0
million to $26,440.8 million.

In FY 2009, Ex-Im Bank also recorded the highest level of authorizations for direct small-
business exports in its 75 year history. New small-business authorizations in FY 2009 increased
36.7 percent to $4,360.4 million as compared with new small-business authorizations in FY 2008
of $3,190.2 million. In FY 2009, small-business authorizations represented 20.7 percent of total
authorizations compared to 22.2 percent of total authorizations in FY 2008. In FY 2009, the
number of transactions that were made available for the direct benefit of small-business
exporters increased by 9.1 percent to 2,540 transactions (87.9 percent of total transactions),
compared to 2,328 small business transactions (86.1 percent of total transactions) in FY 2008.
Due to the financial crisis and the resulting credit crunch, private insurers stopped offering
coverage to many of their previous customers. Small businesses were especially hard hit as they
often did not generate sufficient premium income to keep the private insurers interested during
these difficult times. Once they lost their private sector insurance coverage, many of the small
business exporters turned to Ex-Im Bank for insurance driving up authorizations in FY 2009.

Over the past five fiscal years, Ex-Im Bank’s direct support for the small business sector has
ranged from $2,660.3 million to $4,360.4 million. Of the total small business support, 3,932.0
(90.2 percent) and 2,723.0 (85.4 percent), in FY 2009 and FY 2008 respectively, is from working
capital guarantees and export-credit insurance authorizations.

    Ex-Im Bank currently has exposure in over 165 countries throughout the world. Total exposure
    increased by 16.3 percent to $67,987.8 million at September 30, 2009 compared to $58,472.8
    million at September 30, 2008. Of this total, the Bank’s largest exposure is in the air
    transportation sector, accounting for 48.8 percent of total exposure in FY 2009 and 47.3 percent
    in FY 2008. The highest geographic concentration of exposure is in Asia, with 41.6 percent of
    total exposure in FY 2009 and 40.9 percent in FY 2008.

    While most of Ex-Im Bank’s financings are denominated in U.S. dollars, Ex-Im Bank also
    guarantees notes denominated in certain foreign currencies. In FY 2009, Ex-Im Bank approved
    $1,217.5 million in foreign-currency-denominated transactions. Total outstanding foreign-
    currency exposure at September 30, 2009, was $8,554.6 million, which is 12.6 percent of total
    exposure. The Bank expects that its demand for authorizations denominated in a currency other
    than the U.S. dollar will continue to be strong.

    The overall weighted-average risk rating for FY 2009 short-term rated, medium-term, and long-
    term export-credit authorizations was 3.43 compared to a weighted-average risk rating of 3.77
    for FY 2008. The improvement in the new authorization weighted-average risk rating is
    primarily related to the increase in demand for Ex-Im Bank supported financing among higher
    rated obligors which resulted from the financial crisis in FY 2009. 76.7 percent of Ex-Im Bank’s
    short-term rated, medium-term, and long-term new authorizations in FY 2009 were in the level 1
    to 4 range (AAA to BBB-) while 23.3 percent were rated level 5 to 8 (BB+ to B-).

    The overall weighted-average risk rating for the outstanding portfolio increased from 4.25 in FY
    2008 to 4.31 in FY 2009. The increase in the weighted average risk rating is a direct result of
    the state of the global economy. A major improvement in ratings is not foreseen in the near term
    in the Bank’s portfolio.

    Over the years, there has been a shift in Ex-Im Bank’s portfolio from primarily sovereign and
    other public-sector borrowers to primarily private-sector borrowers. Between FY 2005 and FY
    2009, exposure to public-sector obligors has decreased from 40.5 percent to 38.9 percent, while
    exposure to private-sector obligors has increased from 59.5 percent to 61.1 percent.

    In FY 2010, Ex-Im Bank is implementing a strategic plan which will reinforce the Bank’s ability
    to accomplish its mission as well as meet its congressional mandates in future years.



I. Mission and Organizational Structure

Congressional Authorization and Mission
U




Ex-Im Bank is an independent executive agency and a wholly-owned U.S. government
corporation that was first organized as a District of Columbia banking corporation in 1934. Ex-
Im Bank's operations subsequent to September 30, 1991, are subject to the provisions of the
Federal Credit Reform Act (FCRA) of 1990 (P.L. 101-508). Congress periodically reauthorizes
Ex-Im Bank. The Export-Import Bank Reauthorization Act of 2006 (the Charter) extended the
Bank’s authority until September 30, 2011, at which time the Bank will again seek
reauthorization from Congress.

Ex-Im Bank’s mission is to support U.S. exports by providing export financing through its loan,
guarantee and insurance programs in cases where the private sector is unable or unwilling to
provide financing or where such support is necessary to level the playing field due to financing
provided by foreign governments to their exporters that are in competition for export sales with
U.S. exporters. By facilitating the financing of U.S. exports, Ex-Im Bank helps companies create
and maintain U.S. jobs. The Bank’s charter requires reasonable assurance of repayment for the
transactions the Bank authorizes, and the Bank closely monitors credit and other risks in its
portfolio. In pursuit of its mission of supporting U.S. exports, Ex-Im Bank offers four financial
products: direct loans, loan guarantees, working capital guarantees, and export-credit insurance.
All Ex-Im Bank obligations carry the full faith and credit of the U.S. government.

U   Products

    From a portfolio perspective, guarantees made up the largest portion (71.0 percent) of Ex-Im
    Bank’s exposure at September 30, 2009.

    (in millions)               FY 2009                  FY 2008
    Guarantees                  $48,301.3     71.0%      $45,417.0     77.7%
    Insurance                     9,365.9     13.8%        6,364.1     10.9%
    Outstanding Loans             5,211.3      7.7%        4,174.6      7.1%
    Undisbursed Loans             2,699.2      4.0%          371.4      0.6%
    Outstanding Claims            2,410.1      3.5%        2,145.7      3.7%
    Total                       $67,987.8    100.0%      $58,472.8    100.0%

Ex-Im Bank loan guarantees cover the repayment risks on the foreign buyer’s debt obligations
incurred to purchase U.S exports. Ex-Im Bank guarantees to a lender that, in the event of a
payment default by the borrower, it will pay to the lender the outstanding principal and interest
on the loan. Ex-Im Bank’s comprehensive guarantee covers commercial and political risks for up
to 85 percent of the U.S. contract value.

Ex-Im Bank offers fixed-rate loans directly to foreign buyers of U.S. goods and services. Ex-Im
Bank extends to a company’s foreign customer a fixed-rate loan covering up to 85 percent of the
U.S. contract value. Ex-Im Bank's direct loans carry the lowest fixed-interest rate permitted for
the importing country and term under the Arrangement on Guidelines for Officially Supported
Export Credits negotiated among members of the Organisation for Economic Co-operation and
Development (OECD).

Loans and guarantees extended under the medium-term loan program typically have repayment
terms of one to seven years, while loans and guarantees extended under the long-term loan
program usually have repayment terms in excess of seven years.
Under the Working Capital Guarantee Program, Ex-Im Bank provides repayment guarantees to
lenders on secured, short-term working capital loans made to qualified exporters. The working
capital guarantee may be approved for a single loan or a revolving line of credit Ex-Im Bank’s
working capital guarantee protects the lender from default by the exporter for 90 percent of the
loan principal and interest.

    Ex-Im Bank’s Export-Credit Insurance Program helps U.S. exporters sell their goods overseas by
    protecting them against the risk of foreign-buyer or other foreign-debtor default for political or
    commercial reasons, allowing them to extend credit to their international customers. Insurance
    policies may apply to shipments to one buyer or many buyers, insure comprehensive
    (commercial and political) credit risks or only political risks, and cover short-term or medium-
    term sales.

U   Reasonable Assurance of Repayment
    Ex-Im Bank’s charter requires a reasonable assurance of repayment for all credit authorizations
    in order to ensure that Ex-Im Bank balances support for U.S. export transactions with protection
    of taxpayer resources.

    The Bank’s Board of Directors, Credit Committee, or a Bank officer acting pursuant to
    delegated-approval authority from the Board of Directors makes the final determination of
    reasonable assurance of repayment, taking into consideration staff recommendations.
    Transactions resulting in over $10 million in exposure generally require the approval of the
    Board of Directors.

    Budgeting for New Authorizations Under the FCRA
    Under the FCRA, the U.S. government budgets for the present value of the estimated cost of
    credit programs. For Ex-Im Bank, the cost is determined by analyzing the net present value of
    expected cash receipts and cash disbursements associated with all credits authorized during the
    year. Cash receipts typically include fees or premia and loan principal and interest, and cash
    disbursements typically include claim payments and loan disbursements.

    When expected cash disbursements exceed cash receipts, there is a net outflow of funds,
    resulting in a “cost” to the Bank. This cost is sometimes referred to as subsidy or program cost.
    Ex-Im Bank is required to annually estimate this cost and to seek budget authority from
    Congress to cover that cost. New loans and guarantees with a program cost cannot be committed
    unless sufficient budget authority is available to cover the calculated credit cost.

    When expected cash receipts exceed cash disbursements, there is a net inflow of funds to Ex-Im
    Bank. The net inflow to the Bank is a “negative” subsidy or program revenue. Prior to FY 2008,
    the amount of program revenue was not credited or retained by the Bank but instead was
    transferred to a general fund receipt account at the U.S. Treasury upon disbursement of the
    underlying credit.

    In FY 2008, Congress changed the way budget authority is provided to the Bank to cover (1) the
    estimated costs for that portion of new authorizations where fees are insufficient to cover
    expected losses (subsidy or program cost) and (2) administrative expenses. At the start of the
fiscal year the U.S. Treasury provides Ex-Im Bank with an appropriation warrant for program
costs as well as administrative expenses. The amount of the warrant is established by spending
limits set by Congress. Fees collected during the year that are in excess of expected losses
(offsetting collections) are retained by Ex-Im Bank and used to repay the warrant received at the
start of the year, resulting in a net appropriation of zero and the Bank being self-financing for
budgetary purposes.

This change occurred as a result of an ongoing in-depth analysis of the Bank’s historical net
default experience in relation to the fees collected on its credit programs. The analysis shows that
fees collected were not only sufficient to cover credit losses, they were also sufficient to cover
administrative costs. In fact, since the inception of FCRA, the Bank has returned to the U.S.
Treasury $5.2 billion more than it received in appropriations for program and administrative
costs.

In FY 2009, Ex-Im had $292.1 million in offsetting collections, of which $81.5 million was used
to cover administrative expense obligations. Program costs of $29.6 million were obligated from
available funds carried over from prior years. Of the remaining balance of $210.6 million, $75.0
million (the maximum amount authorized by Congress) was retained by Ex-Im and is available
for obligation of program costs until FY 2012, and $135.6 million was transferred to the U.S
Treasury.

In FY 2008, Ex-Im had $122.8 million in offsetting collections, of which $78.0 million was used
to cover administrative expense obligations. Program costs of $25.4 million were obligated from
available funds carried over from prior years. The remaining $44.8 million is available for
obligation of program costs until FY 2011.

Although Ex-Im Bank no longer receives appropriations, Congress continues its oversight of the
Bank’s budget, setting annual limits on its use of funds for program and administrative expense
obligations.

Organizational Structure
Ex-Im Bank is an organization with a nationwide presence. Ex-Im Bank’s headquarters is located
in Washington, D.C. with business development efforts supported through eight regional offices
across the country.

Ex-Im Bank is divided into the following key functional areas:

Board of Directors: The Board of Directors consists of the president of the Bank, who also
serves as the chairman, the first vice president of the Bank, who serves as vice chairman, and
three additional directors. All are appointed by the president of the United States with the advice
and consent of the Senate. The Board authorizes the Bank’s major transactions and includes an
Audit Committee.

Office of the President: The president serves as the chief executive officer of the Bank and
chairman of the Board of Directors. The president represents the Board generally in its relations
with other officers of the Bank, with agencies and departments of the government, and with
others having business with the Bank. The president has general charge over the business of the
Bank.

Credit and Risk Management Group: The Credit and Risk Management Group is responsible for
reviewing the creditworthiness of proposed transactions and reviewing transactions for
compliance with the Bank’s individual authority by-laws. This group also evaluates the
engineering aspects and environmental impact of proposed projects, and is responsible for
country risk and economic analysis.

Export Finance Group: The Export Finance Group is responsible for the origination of proposed
transactions for all products, services and for operations.

Small Business Group: The Small Business Group leads the Bank’s outreach to small business
exporters and includes Ex-Im Bank’s eight regional offices, which exclusively focus on small-
business outreach.

Office of the General Counsel: The Office of the General Counsel provides legal counsel to the
Bank’s management and the Board of Directors and negotiates and documents the Bank’s major
transactions. The Office of the General Counsel also ensures that the Bank complies with all
applicable laws and regulations.

Office of the Chief Financial Officer: The Office of the Chief Financial Officer is responsible for
all financial operations of the Bank, including budget formulation and execution, treasury,
internal audit, credit accounting and servicing, financial reporting, asset monitoring and
management, claims and recoveries, and portfolio review.

Office of Policy and Planning: The Office of Policy and Planning is responsible for policy
development and analysis as well as liaison with the OECD and Berne Union.

Office of Resource Management: The Office of Resource Management directs human resources,
contracting, technology management, agency administration, and operating services.

Office of Communications: The Office of Communications is responsible for marketing, public
affairs and external affairs.

Office of Congressional Affairs: The Office of Congressional Affairs is responsible for the
Bank’s relations with Congress.

Office of Inspector General: The Office of Inspector General is an independent office within the
Bank created by law to conduct and supervise audits, inspections and investigations relating to
the Bank’s programs and supporting operations; to detect and prevent waste, fraud and abuse;
and to promote economy, efficiency and effectiveness in the administration and management of
the Bank’s programs.
II. Financial Accounting Policy
The accompanying FY 2009 and FY 2008 financial statements have been prepared in accordance
with generally accepted accounting principles in the United States applicable to federal agencies.
The format of the financial statements and footnotes are in accordance with form and content
guidance provided in Circular A-136, Financial Reporting Requirements, revised as of June 10,
2009 issued by the Office of Management and Budget (OMB). Circular A-136 details the
financial data required to be disclosed, the assertions and reviews over financial information that
must be performed and suggests the presentation of such information.
Ex-Im Bank follows OMB Circular A-11 as the primary guidance for calculating the program
cost associated with the Bank’s transactions. In accordance with this guidance, the amount of
program cost calculated on the Bank’s transactions authorized after FCRA and the associated
fees collected equates to the loss allowance on these transactions, and is disclosed as such on the
financial statements and related notes.

III. Mission and Congressional Mandates

Facilitate U.S. Exports to Support U.S. Jobs
Ex-Im Bank’s operations are driven by one fundamental goal: support U.S. jobs by facilitating
the export of U.S. goods and services to international markets. Ex-Im Bank’s programs offer
effective financing support, enabling exporters to win export sales where such support is
necessary to match officially supported foreign competition and to fill financing gaps due to the
lack of available commercial financing. Exports and the jobs they support are a critical
component of the U.S. economy, with exports representing over 10.6 percent of the U.S. gross
domestic product.
In FY 2010, Ex-Im Bank’s Chairman is leading an effort to establish a strategic plan which will
reinforce the Bank’s ability to accomplish its mission as well as meet its congressional mandates
in future years.
During the current period of international economic crisis, the Bank enhanced several of its trade
finance products to help counter the tightening of credit and the lack of liquidity in the export
marketplace and help U.S. exporters, and in particular small-businesses, create and maintain
export-related jobs. Specifically:
       •	 In October 2008, Ex-Im started offering U.S. small businesses a 15 percent premium
          rate reduction in short-term multibuyer and short-term environmental multibuyer
          insurance policies. This reduction affects approximately half of all Ex-Im Bank
          insurance policy holders.

       •	 Ex-Im increased access to working capital loan guarantees by modifying
          requirements and restrictions that increase exporters’ liquidity, such as:
                •	 Companies that produce goods and services that are sold to U.S. companies
                   and subsequently exported are eligible to apply for working capital loans
                   guaranteed by Ex-Im;
                •	 Ex-Im covered warranty letters of credit of up to 20 percent of the loan
                   amount or $1.5 million, whichever is lower, for a 12-month term, an
            increase from the previous $500 thousand ceiling. The purpose of the
            initiative is to provide exporters with the ability to obtain additional
            financing for contracts in which they have to issue a warranty letter of
            credit. Increasing the cap enables exporters to obtain financing and fulfill
            these contracts;
         •	 Ex-Im is evaluating on a case-by-case basis the option of reducing cash
            collateral requirements for performance and advance payment bonds from
            25 percent to 10 percent of face value. In FY 2009, Ex-Im approved total
            loan facilities of $27.4 million with 10 percent collateralization.

•	 The Bank increased access to direct lending by working with borrowers on a case-by­
   case basis to structure transactions to adapt to their current financial conditions or
   restrictions. As a result, direct loan authorizations increased 749.9 percent, from
   $356.0 million in FY 2008 to $3,025.5 million in FY 2009. The most significant
   direct lending authorizations occurred mostly with repeat borrowers and in the first
   eight months of FY 2009 (89.3 percent of the total direct loan authorizations occurred
   before June 2009). The increase in demand for direct loans began to moderate in June
   2009. Loan transactions include:
       •	 $913 million to finance exports of General Electric Company goods to Saudi
            Arabia;
       •	 $500 million to enable Textron Inc. to continue financing U.S exports to
            international customers;
       •	 $900 million in long-term direct loans (and $450 million in long-term loan
            guarantees) to Petróleos Mexicanos (PEMEX) which will support more than
            $1.5 billion of exports from small and large businesses in the U.S.
            Approximately $200 million is under a small business facility.

•	 In April 2009, the Board of Directors approved a $120 million credit facility for
   short-term and medium-term private sector transactions covering four Angolan banks.
   This authorization provides the private sector expedited access to U.S. goods and
   services.

•	 In May 2009, Ex-Im entered into a preliminary agreement of $2 billion in financing
   to encourage exports of U.S. goods and services to Petróleo Brasileiro S.A.
   (Petrobras).

•	 In June 2009, Ex-Im extended its Nigerian Bank Facility to October 31, 2009. Ex-Im
   Bank's board of directors plans to consider a twelve-month extension of the facility
   prior to the new expiration date. The facility covers 14 Nigerian banks and allows for
   expedited processing of short- and medium-term insurance and guarantees, and long-
   term guarantees, supporting U.S. exports to Nigeria. In conjunction with this facility,
   Ex-Im Bank has been working closely with the banks to prudently navigate the
   Nigerian banking sector issues recently raised by the Central Bank of Nigeria.

•	 In June 2009, Ex-Im and the Federation of Indian Chambers of Commerce and
   Industry signed an agreement committing to work together to expand the trade
           relationship between U.S. and India. The agreement offers opportunities for small and
           large U.S. exporters to expand exports and maintain U.S. jobs.

       •	 Ex-Im approved two more lenders for its Medium-Term Delegated Authority
          Program: Frost National Bank, Texas, and PNC Bank, Pennsylvania. Approved
          lenders can increase use of Ex-Im’s medium-term guarantees supporting commercial
          loans for foreign buyers of U.S. capital goods such as machinery and equipment. The
          program is designed to reduce transaction turnaround time and provide additional
          support for U.S. small-business exports.

       •	 Ex-Im Bank addressed a market failure related to Korean financial institutions by
          providing over $1 billion in guarantees due to U.S. lenders unwilling to take
          additional Korean bank risk related to export letters of credit.

       •	 Ex-Im Bank implemented the Loan “Take-Out” Option which allows commercial
          banks to sell their Ex-Im Bank Guaranteed medium- and long- term loans back to Ex-
          Im Bank. This action allows commercial banks to reduce their liquidity risks, lower
          borrowing rates and made U.S. exports more competitive.


Results of Operations: FY 2009 Authorizations
In FY 2009, Ex-Im Bank extended $21,021.1 million in authorizations. This is a 46.0 percent
increase over FY 2008 authorizations of $14,398.9 million and is the highest level of
authorizations in any fiscal year of the Bank’s 75 year history. This change stems from an
increase in demand primarily driven by the lack of available private sector liquidity and the
Bank’s ability to respond to the resulting financing gaps. Full year authorizations have ranged
from $12,150.5 million to $21,021.1 million during the past five fiscal years as shown in Exhibit
1.
                             Exhibit 1: Authorizations by Fiscal Year

(in millions)
Authorizations                       FY 2005     FY 2006      FY 2007     FY 2008     FY 2009
Long Term
  Loans                                    $­       $56.5           $­      $356.0    $3,025.5
  Guarantees                          8,076.1     6,603.5      7,234.0     8,101.5     9,628.5
Subtotal, Long Term                   8,076.1     6,660.0      7,234.0     8,457.5    12,654.0

Medium Term
 Guarantees                             399.4       387.6       504.2       697.0       315.2
 Insurance                              451.0       641.4       301.8       228.0       237.3
Subtotal, Medium Term                   850.4     1,029.0       806.0       925.0       552.5

Short Term
 Working Capital                      1,096.3     1,173.8      1,255.3     1,380.9     1,531.0
 Insurance                            3,913.4     3,287.7      3,274.1     3,635.5     6,275.8
Subtotal, Short Term                  5,009.7     4,461.5      4,529.4     5,016.4     7,806.8

Tied Aid                                  -           -            -           -           7.8

Total Authorizations                $13,936.2   $12,150.5    $12,569.4   $14,398.9   $21,021.1




Facilitate U.S. Exports by Small Business
Small businesses are major creators of jobs in America. The Bank’s mandate from Congress
places significant emphasis on supporting small-business exports. In addition, the Bank’s charter
states: “The Bank shall make available, from the aggregate loan, guarantee and insurance
authority available to it, an amount to finance exports directly by small-business concerns (as
defined under section 3 of the Small Business Act) which shall be not less than 20 percent of
such authority for each fiscal year.”

Ex-Im Bank’s Small Business Group provides a bankwide focus on small-business support with
overall responsibility for expanding and overseeing small business outreach. This group is
responsible for making small businesses aware of the opportunities available to them and for
acting as a liaison with the Small Business Administration and other departments and agencies in
the U.S. government in matters affecting small businesses.

Ex-Im Bank’s programs play an important role in providing export-finance support to small
businesses that have the ability to expand and create American jobs. In 1978, Ex-Im Bank
introduced its first short-term export-credit insurance policy tailored for small business. Since
this introduction, Ex-Im Bank has been designing and implementing programs and policies to
meet the needs of the U.S. small-business exporter.
Results of Operations: FY 2009 Small-Business Authorizations
In FY 2009, Ex-Im Bank recorded the highest level of authorizations for direct small-business
exports in its 75 year history. New small-business authorizations in FY 2009 increased 36.7
percent to $4,360.4 million as compared with new small business authorizations in FY 2008 of
$3,190.2 million In FY 2009, small-business authorizations represented 20.7 percent of total
authorizations compared to 22.2 percent of total authorizations in FY 2008. In FY 2009, the
number of transactions that were made available for the direct benefit of small-business
exporters increased by 9.1 percent to 2,540 transactions (87.9 percent of the total number of
transactions), compared to 2,328 transactions (86.1 percent of the total number of transactions) in
FY 2008. Over the past five fiscal years, Ex-Im Bank’s direct support for the small business
sector has ranged from $2,660.3 million to $4,360.4 million. Ex-Im Bank’s objective is to grow
small-business authorizations in the context of a reasonable assurance of repayment and in
response to market demand.

Ex-Im Bank offers two products that primarily benefit small businesses: working capital
guarantees and export-credit insurance. During FY 2009, $1,232.9 million, or 80.5 percent of
total authorizations in the Working Capital Guarantee Program supported small businesses. In
FY 2008, $1,075.5 million, or 77.9 percent, of total authorizations in the Working Capital
Guarantee Program supported small businesses. As the economy grew more uncertain, lenders
sought to mitigate risks and improve the credit quality of their loans, particularly those to small
businesses. Ex-Im Bank’s Working Capital Guarantee provides a credit enhancement to these
loans which, especially in times of economic crisis, increases the awareness and use of the
program. In FY 2009, of total authorizations under the export-credit insurance program, $2,699.1
million supported small businesses, compared to $1,647.5 million in FY 2008. Due to the
financial crisis and the resulting credit crunch, private insurers stopped offering coverage to
many of their previous customers. Small businesses were especially hard hit as they often did
not generate sufficient premium income to keep the private insurers interested during these
difficult times. Once they lost their private sector insurance coverage, many of the small
business exporters turned to Ex-Im Bank for insurance which increased small-business
authorizations in FY 2009.

Exhibit 2 shows the total dollar amount of authorizations for small business exports for each year
since FY 2005, together with the percentage of small-business authorizations to total
authorizations for that fiscal year.
                                      Exhibit 2: Small Business Authorizations

                         $4,500.0                                                             30.0%

                         $4,000.0




                                                                                                      Percentage of Total Authorizations
                                                                                              25.0%
                         $3,500.0

                         $3,000.0                                                             20.0%

                         $2,500.0
       in millions




                                                                                              15.0%
                         $2,000.0

                         $1,500.0                                                             10.0%

                         $1,000.0
                                                                                              5.0%
                           $500.0

                             $0.0                                                             0.0%
                      Fiscal Year        2005       2006      2007       2008       2009
                     Authorizations    $2,660.3   $3,184.7   $3,351.7   $3,190.2   $4,360.4
                     Percentage of      19.1%      26.2%      26.7%      22.2%      20.7%
                     Authorizations



Facilitate U.S. Exports to Sub-Saharan Africa
Ex-Im Bank provides U.S. exporters with the financing tools they need to successfully compete
for business in Africa. Ex-Im Bank's products and initiatives help U.S. exporters in all regions of
Africa, including high-risk and emerging markets.

Results of Operations: FY 2009 Sub-Saharan Africa Authorizations
The total number of Sub-Saharan Africa authorizations increased 26.7 percent to 109 in FY 2009
from 86 in FY 2008. Although the total number of authorizations increased, the dollar amount of
authorizations decreased 28.4 percent to $412.2 million (2.0 percent of total authorizations) in
FY 2009 from $575.5 million (4.0 percent of total authorizations) in FY 2008. The dollar
decrease in FY 2009 is mainly driven by a large FY 2008 transaction in Ghana.

Facilitate U.S. Exports for Environmental Beneficial Goods and Services
Ex-Im Bank’s financing helps mitigate risk for U.S. environmental companies and also offers
competitive financing terms to international buyers for the purchase of U.S.-made environmental
goods and services. Ex-Im Bank has an active portfolio that includes financing for U.S. exports
of:

   •     Renewable energy equipment
   •     Wastewater treatment projects
   •     Air pollution technologies
   •     Waste management services
   •     Other various environmental goods and services
Ex-Im Bank support for U.S. environmental companies ultimately fuels U.S. job creation and the
innovative research and development that allows the U.S. environmental industry to remain at
the forefront worldwide.

Results of Operations: FY 2009 Environmentally Beneficial Authorizations
The total number of environmentally beneficial authorizations increased 1.1 percent to 88 in FY
2009 from 87 in FY 2008. In FY 2009, Ex-Im Bank authorizations of environmentally beneficial
goods and services increased 73 percent to $393.6 million (1.9 percent of total transactions) from
$226.9 million (1.5 percent in FY 2008).

The total number of renewable energy authorizations increased 85.7 percent to 13 in FY 2009
from 7 in FY 2008. In FY 2009, Ex-Im Bank authorizations which support U.S. renewable-
energy exports and services increased 205.9 percent to $93.0 million (0.4 percent of total
transactions) from $30.4 million (0.2 percent in FY 2008).



IV. Effectiveness and Efficiency
Ex-Im Bank uses various measures to assess the relative efficiency and effectiveness of the
Bank’s programs. As an overall measure, the Bank’s annual Report to the U.S. Congress on
Export Credit Competition and the Export-Import Bank of the United States (Competitiveness
Report) compares the Bank’s competitiveness with that of the other G-7 export credit agencies
(ECAs). In addition, Ex-Im Bank uses various leverage measures to assess efficiency and cost
effectiveness.

Efficient: Ex-Im Bank has been Self-Sustaining since FY 2008
Ex-Im Bank has been self-sustaining for budgetary purposes since FY 2008. As a result, the
Bank does not rely on Congressional appropriation to sustain operations, which is critical in a
tight budgetary environment. Ex-Im Bank’s program revenue (i.e. in a given year, fee collections
from transactions that exceed the forecasted loss on those transactions) is retained as offsetting
collections and used to offset new obligations in the fiscal year, including prudent reserves to
cover future losses as well as all administrative costs. In FY 2009, Ex-Im Bank received $292.1
million in offsetting collections, while new obligations totaled $111.1 million; compared with
$122.8 million offsetting collections and $103.4 million new obligations in FY 2008. The 137.9
percent increase in offsetting collections is primarily attributable to the increase in FY 2009
authorizations, particularly long-term authorizations which increased 48.0 percent from FY
2008.
                                Exhibit 3: Offsetting Collections and New Obligations
                                                                      FY 2009




Offsetting Collections                                                Offsetting Collections




                                                           Program
          Obligations         Administrative Expenses       Costs



                     $0.0               $50.0               $100.0             $150.0          $200.0    $250.0     $300.0
                                                                             (in millions)




                                                                        FY 2008



Offsetting Collections                   Offsetting Collections




                                                           Program
                            Administrative Expenses
          Obligations                                       Costs




                     $0.0                $50.0               $100.0              $150.0         $200.0     $250.0     $300.0
                                                                               (in millions)




As a quantitative efficiency measure, the percentage of offsetting collections in FY 2009
compared to total obligations (administrative expenses and program costs), as depicted in Exhibit
3, represented 262.9 percent of obligations versus 118.8 percent in FY 2008.

Overall Effectiveness: Recognition from Customers and Peers
The Bank’s competitiveness report to Congress showed survey results from exporters and
lenders that indicated the Bank’s core business policies and practices were classified as
competitive with other officially supported foreign competition, primarily other G-7 ECAs.
According to the data, Ex-Im Bank terms, including policy coverage, interest rates, exposure-fee
rates, and risk premia, consistently matched competitors.
However, the landscape of export credit agencies is shifting. Many of Ex-Im Bank’s competitor
ECAs are moving away from their traditional roles and are evolving into quasi-market players.
They are doing this by allowing greater non-domestic content in the projects that they support
and by venturing into more commercial endeavors, such as financing into high income markets.
Also, Ex-Im Bank’s public-policy constraints – economic-impact analysis, foreign-content
policy, local-costs policy, tied aid policies and procedures, and U.S. shipping requirements –
have the potential to create tensions between the goals of maximizing U.S. exporter
competitiveness vis a vis foreign ECA (and maximizing Ex-Im Bank financing) and satisfying
public mandates (which may limit Ex-Im Bank financing).

Leverage of Resources: A Good Deal for U.S. Taxpayers
The Bank uses leverage ratios to assess efficiency and to measure the return on resources
invested in Ex-Im Bank programs. Prior to FY 2008, resources to cover Ex-Im Bank’s program
costs (excess of expected credit losses over fees for individual credits) and administrative costs
were in the form of appropriations from Congress. Beginning in FY 2008, resources available to
the Bank are collections (mostly exposure fees) in excess of amounts needed to cover estimated
credit losses.

For every dollar of budget authority used for program and administrative expenses during FY
2009, Ex-Im Bank facilitated an estimated $237.4 of U.S. exports. This multiple compares to
$189.5 of U.S. exports in FY 2008.

The value in terms of administrative budget authority is even greater. For every dollar of
administrative budget authority used in FY 2009, Ex-Im Bank provided financing in support of
an estimated $323.2 of U.S. exports, compared to an estimated $251.2 of U.S. exports in FY
2008. Exhibit 4 shows the total estimated U.S. exports, the corresponding total budget authority,
the corresponding administrative budget authority, and resulting leverage measures for the past
five fiscal years. From FY 2005 through FY 2008, program-budget authority (a component of
total budget authority) used gradually decreased as Ex-Im Bank moved to using its actual
historical default and recovery rates to calculate more precisely the program cost associated with
new authorizations. Previously, OMB provided default and recovery rates to all U.S. government
international credit agencies for use in calculating the program cost. However, Ex-Im Bank’s
actual default and recovery rates reduced the program cost to where it now more accurately
reflects the Bank’s own default and recovery experience. In FY 2009, Ex-Im Bank used more
program budget authority due to the record level of authorizations.
Ex-Im Bank’s default rate net of recoveries, whether measured from the inception of the Bank or
the beginning of credit reform, has been less than two percent of loan disbursements and
shipments guaranteed. Future claim activity in the short term can be very volatile. Although Ex-
Im Bank’s long-term experience does include periods of instability as well as periods of relative
constancy, to account for the current economic environment in FY 2009, the Bank applied a
more conservative methodology to predict the probability of defaults. Continued use of this more
conservative approach, as well as any material deterioration from historical experience in future
default and recovery rates would require the Bank to adjust it reserves accordingly, which could
have a negative impact on leverage ratios in future periods.
                                      Exhibit 4: Budget Authority to Export Value


                                                                                                            $350.0
                                 $27,000.0
                                 $24,000.0                                                                  $300.0




                                                                                                                     Leverage (in dollars)
                                 $21,000.0                                                                  $250.0
       (in millions)




                                 $18,000.0
                                                                                                            $200.0
                                 $15,000.0
                                 $12,000.0                                                                  $150.0
                                   $9,000.0                                                                 $100.0
                                   $6,000.0
                                                                                                            $50.0
                                  $3,000.0
                                      $0.0
                              Fiscal Year                                                                   $0.0
                                                  2005        2006        2007        2008        2009
                       Export Value             $17,858.4   $16,119.4   $16,041.0   $19,597.2   $26,440.8
                       Total Budget Authority    $313.8      $263.3      $124.5      $103.4      $111.4
                       Export to Total Budget    $56.9       $61.2       $128.8      $189.5      $237.4
                       Authority Leverage
                       Export to Admin Budget    $246.0      $222.3      $220.3      $251.2      $323.2
                       Authority Leverage




Another leverage measure (Exhibit 5) examines the productivity contributed by each employee
as measured by the level of authorizations. In FY 2009, the average level of authorizations per
employee was $57.6 million, up from $40.1 million in FY 2008.
                                                  Exhibit 5: Employee Leverage

                                 Authorization to Employee Leverage

                    $22,000.0                                                                        $70.0
                    $20,000.0
                                                                                                     $60.0
                    $18,000.0




                                                                                                             (in millions)
                    $16,000.0                                                                        $50.0




                                                                                                              Leverage
                 (in millions)




                    $14,000.0
                    $12,000.0                                                                        $40.0
                    $10,000.0                                                                        $30.0
                     $8,000.0
                     $6,000.0                                                                        $20.0
                     $4,000.0
                                                                                                     $10.0
                     $2,000.0
                 Fiscal Year
                         $0.0                                                                        $0.0
                                          2005         2006        2007        2008        2009
     Authorization Level                $13,936.2    $12,150.5   $12,569.4   $14,398.9   $21,021.1
     Authorization to Employee            $35.0       $32.0        $34.3      $40.1        $57.6
     Leverage (in millions)



V. Portfolio Analysis

Ex-Im Bank’s Portfolio by Program, Region, Industry, Obligor Type and Foreign
Currency
For financial statement purposes, Ex-Im Bank defines exposure as the authorized outstanding
and undisbursed principal balance of loans, guarantees, and insurance. It also includes the
unrecovered balance of payments made on claims that were submitted to Ex-Im in its capacity as
guarantor or insurer under the export guarantee and insurance programs. Exposure does not
include accrued interest or transactions pending final approval. This corresponds to the way
activity is charged against the Bank’s overall $100 billion lending limit imposed by Section
6(a)(2) of Ex-Im Bank’s Charter.

Working Capital Guarantees may be approved for a single loan or a revolving line of credit, with
an availability generally of one year. Guaranteed lenders do not report activity to Ex-Im, the
entire credit is assumed to be “disbursed” when the fee is paid to Ex-Im. The credit is recorded
as repaid in one installment six months after the expiry date of the credit unless the Controller’s
office is notified before that time that a claim has been paid. Under the assumption that the
exporter is using the credit up to the end of the expiry period, six months provides sufficient time
for the guaranteed lender to report defaults to Ex-Im in the event that the exporter does not repay
the credit. If a claim is paid, the remaining outstanding balance of the credit associated with the
claim is reduced to zero. Exposure is then reflected as an unrecovered claim.

Since there is typically a delay in reporting shipments under the insurance program, undisbursed
balances remain on the books for 120 days after the expiry date to allow for the posting of
shipments that took place within the period covered by the policy but were reported after the
expiry date. These unreported shipments pose some liability in the form of claims that have been
incurred but not yet reported (IBNR). Leaving the policy open past the expiry date provides a
reserve for IBNR.

Ex-Im Bank currently has exposure in over 165 countries throughout the world totaling
$67,987.8 million at September 30, 2009. In general, total exposure over the five-year period has
averaged $60.9 billion.

Exhibit 6 summarizes total Ex-Im Bank exposure by program and shows each program as a
percentage of the total exposure at the end of the respective fiscal year.

                                     Exhibit 6: Exposure by Program

(in millions)                              FY 2005       FY 2006        FY 2007         FY 2008      FY 2009
Guarantees                                $43,554.7     $42,460.0      $44,039.7       $45,417.0    $48,301.3
Insurance                                   7,316.1       6,970.2        6,180.4         6,364.1      9,365.9
Loans                                       8,456.5       6,043.9        4,965.8         4,546.0      7,910.5
Receivables from Subrogated Claims          3,625.2       2,363.7        2,238.6         2,145.7      2,410.1
  Total Exposure                          $62,952.5     $57,837.8      $57,424.5       $58,472.8    $67,987.8

(% of Total)                               FY 2005       FY 2006        FY 2007         FY 2008         FY 2009
Guarantees                                   69.2%         73.4%          76.7%           77.6%           71.0%
Insurance                                    11.6%         12.1%          10.8%           10.9%           13.8%
Loans                                        13.4%         10.5%           8.7%            7.8%           11.6%
Receivables from Subrogated Claims            5.8%          4.0%           3.8%            3.7%            3.6%
 Total Exposure                             100.0%        100.0%         100.0%          100.0%          100.0%
Exhibit 7 summarizes total Ex-Im Bank exposure by geographic region. The All Other category
in Exhibit 7 includes undisbursed balances of short-term multi-buyer insurance that is not
allocated by region until the shipment has taken place.

                                     Exhibit 7: Geographic Exposure

(in millions)                                FY 2005        FY 2006         FY 2007          FY 2008         FY 2009
Asia                                        $24,941.5      $24,297.4       $24,009.0        $23,925.6       $28,271.2
Latin America & Caribbean                    13,917.4       14,416.7        13,226.5         13,618.1        14,222.2
Europe                                        6,213.0        5,806.0         6,173.9          6,447.1         6,897.2
North America                                 3,181.8        3,410.7         4,841.1          5,152.2         6,136.1
Africa                                        6,497.3        3,933.5         3,819.9          4,011.0         4,555.8
Oceania                                       1,539.6        1,423.9         1,377.0          1,135.0         1,394.5
All Other                                     6,661.9        4,549.6         3,977.1          4,183.8         6,510.8
  Total Exposure                            $62,952.5      $57,837.8       $57,424.5        $58,472.8       $67,987.8

(% of Total)                                 FY 2005        FY 2006         FY 2007          FY 2008         FY 2009
Asia                                           39.6%          42.0%           41.8%            40.9%           41.6%
Latin America & Caribbean                      22.1%          24.9%           23.0%            23.3%           20.9%
Europe                                          9.9%          10.0%           10.8%            11.0%           10.1%
North America                                   5.1%           5.9%            8.4%             8.8%            9.0%
Africa                                         10.3%           6.8%            6.7%             6.9%            6.7%
Oceania                                         2.4%           2.5%            2.4%             1.9%            2.1%
All Other                                      10.6%           7.9%            6.9%             7.2%            9.6%
 Total Exposure                               100.0%         100.0%          100.0%           100.0%          100.0%
Exhibit 8 shows exposure by the major industrial sectors in the Bank’s portfolio.

                         Exhibit 8: Exposure by Major Industrial Sectors
(in millions)                     FY 2005        FY 2006         FY 2007       FY 2008       FY 2009
Air Transportation               $24,935.1      $24,443.0       $25,551.5     $27,671.2     $33,203.0
Oil & Gas                          6,681.2        7,361.6         7,084.7       7,482.6       8,014.7
Manufacturing                      5,465.2        4,418.0         4,405.3       4,915.9       4,614.5
Power Projects                     5,696.2        4,876.3         4,085.0       3,830.1       4,448.5
All Other                         20,174.8       16,738.9        16,298.0      14,573.0      17,707.1
  Total Exposure                 $62,952.5      $57,837.8       $57,424.5     $58,472.8     $67,987.8

(% of Total)                      FY 2005          FY 2006       FY 2007       FY 2008       FY 2009
Air Transportation                  39.6%            42.3%         44.5%         47.3%         48.8%
Oil & Gas                           10.6%            12.7%         12.3%         12.8%         11.8%
Manufacturing                        8.8%             7.7%          7.7%          8.4%          6.8%
Power Projects                       9.0%             8.4%          7.1%          6.6%          6.5%
All Other                           32.0%            28.9%         28.4%         24.9%         26.1%
 Total Exposure                    100.0%           100.0%        100.0%        100.0%        100.0%

Through the years, there has been a shift in Ex-Im Bank’s portfolio. As the need for private-
sector financing has increased, the percentage of Ex-Im Bank’s portfolio represented by private
obligors has increased from 52.0 percent in FY 2005 to 61.1 percent in FY 2009.

Of the portfolio at September 30, 2009, 38.9 percent represents credits to public-sector obligors
or guarantors (17.2 percent to sovereign obligors or guarantors and 21.7 percent to public non-
sovereign entities); 61.1 percent represents credits to private-sector obligors. A breakdown of
public-sector versus private-sector exposure is shown in Exhibit 9.


                              Exhibit 9: Public and Private Obligors
      Year End               FY 2005     FY 2006      FY 2007    FY 2008     FY 2009
      Private Obligors      52.0%       53.6%        58.0%      59.5%       61.1%

      Public Obligors       48.0%       46.4%        42.0%      40.5%       38.9%


Ex-Im Bank provides guarantees in foreign currency to allow borrowers to better match debt
service costs with earnings. Ex-Im Bank adjusts its reserves to reflect the potential risk of foreign
currency fluctuation.

In FY 2009, Ex-Im Bank approved $1,217.5 million in transactions denominated in a foreign
currency, 5.8 percent of all new authorizations, as shown in Exhibit 10. In FY 2008, Ex-Im Bank
approved $1,618.8 million in transactions denominated in a foreign currency, 11.2 percent of all
new authorizations. Foreign-currency transactions are booked in U.S. dollars based on the
exchange rate at the time of authorization. The U.S. dollar exposure is adjusted at year end using
the latest exchange rates.

At September 30, 2009, Ex-Im Bank had 79 guarantee transactions with outstanding balances
denominated in a foreign currency. Using the foreign-currency exchange rates at September 30,
2009, Ex-Im Bank adjusted the dollar amount of the outstanding balances for these transactions.
The adjustment was a net increase in exposure of $1,130.9 million for a total outstanding balance
of $8,554.6 million of foreign-currency denominated guarantees, representing 12.6 percent of
total Bank exposure.

At the end of FY 2008, Ex-Im Bank had 77 transactions with outstanding balances denominated
in a foreign currency. Using the foreign-currency exchange rates at September 30, 2008, Ex-Im
Bank adjusted the dollar amount of the outstanding balances for these transactions. The
adjustment was a net increase in exposure of $1,061.4 million for a total outstanding balance of
$8,016.8 million of foreign-currency denominated guarantees, representing 13.7 percent of total
Bank exposure.


                                Exhibit 10: Foreign-Currency Transactions



                           $25,000.0                                                       16.0%


                                                                                           14.0%




                                                                                                   Percentage of Total Authorizations
                           $20,000.0
                                                                                           12.0%


                                                                                           10.0%
                           $15,000.0
           in millions




                                                                                           8.0%

                           $10,000.0
                                                                                           6.0%


                                                                                           4.0%
                            $5,000.0
                                                                                           2.0%


                                $0.0
                         Fiscal Year                                                       0.0%
                                         2005      2006      2007      2008     2009
           Authorizations              $13,936.2 $12,150.5 $12,569.4 $14,398.9 $21,021.1
           Foreign Currency Auth $2,054.2 $1,753.4 $1,295.1 $1,618.8 $1,217.5
           Foreign Currency       14.7%    14.4%    10.3%    11.2%    5.8%
           Authorizations as a
           Percentage of Total
           Authorizations



The level of foreign-currency authorizations is attributable in large part to borrowers’ desire to
borrow funds in the same currency as they earn funds, in order to mitigate the risk involved with
exchange-rate fluctuations. The majority of the foreign-currency authorizations support U.S.
exports of commercial jet aircraft. Exhibit 11 shows the U.S. dollar value of the Bank’s
outstanding foreign-currency exposure by currency.
           Exhibit 11: U.S. Dollar Value of Outstanding Foreign-Currency Exposure

                                         FY 2009                        FY 2008
                              Outstanding                     Outstanding
                                 Balance        Percentage      Balance        Percentage
         Currency             (in millions)      of Total     (in millions)     of Total
         Euro                       $5,460.1         63.8%         $4,520.7         56.4%
         Canadian Dollar             1,113.8         13.0%           1,323.9        16.5%
         Australian Dollar              670.3         7.8%             718.4         9.0%
         Japanese Yen                   581.4         6.8%             580.8         7.2%
         New Zealand Dollar             177.3         2.1%             182.8         2.3%
         Mexican Peso                   175.1         2.0%             243.8         3.0%
         Korean Won                     164.8         1.9%             177.5         2.2%
         British Pound                  133.0         1.6%             176.0         2.2%
         South African Rand              74.3         0.9%               87.8        1.1%
         Swiss Franc                      4.5         0.1%                  -            -
         Russian Ruble                      -             -               5.1        0.1%
         Total                      $8,554.6        100.0%         $8,016.8        100.0%



VI. Loss Reserves, Major Impaired Assets, and Paris Club Activities
Allowance for Losses on Loans, Guarantees, Insurance and Subrogated Claims
The total allowance for Ex-Im Bank credits is comprised of an allowance for loss on all credits
and defaulted guarantees and insurance policies. A provision is charged to earnings as losses are
estimated to have occurred. Write-offs are charged against the allowance when management
determines that a loan or claim balance is uncollectable. Subsequent recoveries, if any, are
credited to the allowance.

The allowance for Ex-Im Bank credits authorized after FCRA equates to the amount of credit
loss associated with the applicable credit. Ex-Im Bank has established cash flow models for
expected defaults, fees and recoveries to estimate the credit loss for allowance purposes. The
models incorporate Ex-Im Bank’s actual historical loss and recovery experience.

Due to the fact that financial and economic factors affecting credit repayment prospects change
over time, the net estimated credit loss of loans, guarantees and insurance is re-estimated
annually in accordance with OMB guidelines and Statement of Federal Financial Accounting
Standards 18, “Amendments to Accounting Standards for Direct Loans and Loan Guarantees”.
This re-estimate indicates the appropriate level of funds necessary to cover projected future
claims. Decreases in estimated credit losses result in excess funds returned to the U.S. Treasury
while increases in estimated credit losses are covered by additional appropriations that become
automatically available through permanent and indefinite authority, pursuant to the FCRA.
The Bank has seen an increase in defaults in FY 2009 compared to FY 2008 and expects defaults
to continue at a higher level than historical averages at least through FY 2010. Given the U.S.
and world economic problems in the last fiscal year, and the resulting liquidity issues, Ex-Im
Bank adjusted its loan loss reserves to better provide for any potential portfolio deterioration. In
FY 2009 loss reserves were analyzed using significantly higher probabilities of defaults, leading
to higher overall loss factors. As a result, as of September 30, 2009, the re-estimate of the credit
loss of the outstanding balances of FY 1992 through FY 2009 commitments indicated that a net
of $595.4 million of additional funds are needed in the financing accounts. These funds will be
received from the U.S. Treasury in FY 2010.

As of September 30, 2008, the re-estimate of the credit loss of the outstanding and undisbursed
balances of FY 1992 through FY 2008 commitments indicated that of the cash balances in the
financing accounts, the net amount of $128.0 million was no longer needed to cover
commitments and was due to the U.S. Treasury.

The total allowance for losses at September 30, 2009 for loans, claims, guarantees and insurance
commitments is $5,450.9 million, which is 8.0 percent of total exposure of $67,987.8 million
(Exhibit 12). This compares to the allowance for losses at September 30, 2008, for loans, claims
receivable, guarantees and insurance commitments of $4,080.2 million that was 7.0 percent of
total exposure of $58,472.8 million.

                           Exhibit 12: Loss Reserves and Exposure Summary

(in millions)                                                                FY 2009        FY 2008
Loss Reserves
Allowance for Loan Losses (Including Undisbursed)                       $    1,371.6   $    1,199.3
Allowance for Defaulted Guarantees and Insurance                             1,751.7        1,416.9
Liability for Guarantees and Insurance (Including Undisbursed)               2,327.6        1,464.0
Total Reserves                                                          $    5,450.9   $    4,080.2

Total Exposure
Loans                                                                   $    7,910.5   $    4,546.0
Receivables from Defaulted Guarantees and Insurance                          2,410.1        2,145.7
Guarantees and Insurance                                                    57,667.2       51,781.1
Total Exposure                                                          $   67,987.8   $   58,472.8

Loss Reserve as Percentage
 of Total Exposure                                                              8.0%           7.0%

Major Impaired Assets
At September 30, 2009, Ex-Im Bank had three project financings, five transportation credits and
eleven major corporate borrowers (those having an outstanding balance greater than $20 million)
that had been classified as impaired. The aggregate amount of exposure was $825.0 million.
Compared to the previous year, one project and eight corporates were added to the list primarily
due to the global economic crisis which had particularly significant adverse impact on the
banking sector in Kazakhstan and Ukraine. The banking sector in Nigeria also suffered
substantial losses due primarily to governance and capital adequacy challenges. Ex-Im Bank is
currently in the process of restructuring its exposure to three of the Kazakh banks and one bank
in Ukraine. Restructuring of the exposure to the banks in Nigeria is not anticipated but these
institutions will be monitored very closely. A transportation credit was removed as it has been
successfully restructured. The two transportation credits that have been added to the list are in
the process of restructuring. When entering into these credit facilities, Ex-Im Bank was
supporting the export of U.S. products and services to purchasers in Argentina, Brazil, Indonesia,
Italy, Jordan, Kazakhstan, Pakistan, Philippines, Senegal, Thailand, Turkey, Mexico and
Ukraine.

Paris Club Activities
The Paris Club is a group of 19 permanent member-creditor countries that meet regularly in Paris
to discuss and provide debt relief to qualifying debtor countries. In FY 2009 and FY 2008 four
and six countries, respectively, were eligible for debt forgiveness and/or debt rescheduling of
their debt owed to Ex-Im Bank, including capitalized interest (Exhibit 13).

                           Exhibit 13: Paris Club Bilateral Agreements


(in thousands)                       FY 2009                      FY 2008

                            Principal        Debt         Principal          Debt
Country                     Forgiven      Rescheduled     Forgiven        Rescheduled
Central African Republic       $1,899               $­          $2,884          $2,864
Congo                            5,592               -                -              -
Grenada                              -               -                -          5,051
Guinea                               -               -           3,186               -
Haiti                              907               -              574              -
Liberia                              -               -          22,910               -
Montenegro                           -               -           8,167          29,931
Togo                                  6              -                -              -
Total                          $8,404              $­          $37,721         $37,846



VII. Portfolio Risk Rating System and Risk Profile

The Interagency Country Risk Assessment System (ICRAS)
OMB established the Interagency Country Risk Assessment System (ICRAS) to provide a
framework for uniformly measuring the costs of the U.S. government’s international credit
programs across the various agencies that administer them. To operate this framework, OMB
chairs an interagency working group composed of the agencies with international loan programs,
as well as the Departments of State and U.S. Treasury, the Federal Deposit Insurance Corp. and
the Federal Reserve Board. In addition, OMB consults annually with the Congressional Budget
Office.

The ICRAS methodology determines both the risk levels for lending to sovereign governments
and non-sovereign borrowers. The non-sovereign levels can be adjusted.
One of OMB’s key goals in developing this system was to pattern ICRAS after systems in the
private sector. Therefore ICRAS adopts similar ratings and rating methodologies as the private
rating agencies, such as Moody’s, Standard & Poor’s and Fitch IBCA.

Risk Ratings
ICRAS rates every country to which U.S. government agencies have outstanding loans or loan
guarantees or are anticipating making new credits available. The interagency group has
established 11 sovereign and nine non-sovereign risk categories and currently has risk ratings for
198 markets.

Like the private sector risk-rating agencies, ICRAS rates countries on the basis of economic,
political and social variables. Each country receives two ratings: a sovereign-risk rating and a
non-sovereign-risk rating. Throughout the rating process analysts use private-sector ratings as
one of the benchmarks for determining the ICRAS rating in keeping with the principle of
congruence to private ratings. When ICRAS ratings significantly deviate from Moody’s, S&P’s,
Fitch IBCA’s or OECD ratings, the reasoning is substantiated in an ICRAS paper and is the
subject of interagency discussion. This presumption serves as a key reference point throughout
the ICRAS process.

The ratings are based, in general, on a country's (1) ability to make payments, as indicated by
relevant economic factors and (2) willingness to pay, as indicated by payment record and
political and social factors. Four categories, ratings 1 through 4, are roughly equivalent to
"creditworthy" or "investment grade" private bond ratings. Three categories, ratings 9 to 11, are
for countries either unable to pay fully, even with extended repayment periods, or currently
unwilling to make a good faith effort. In between are categories reflecting various degrees of
potential or actual payment difficulties.

ICRAS Default Estimates
Ex-Im Bank has established cash flow models for expected defaults, fees and recoveries to
estimate the credit loss for each approved credit. For new authorizations in FY 2009 and FY
2008, the models incorporated Ex-Im Bank’s actual historical loss and recovery experience.

Portfolio-Risk Monitoring and Evaluation
The recent volatility in commodity prices, the fluctuation in currency exchange rates, the general
level of economic activity, and the tightening credit markets have had an impact on the Bank’s
operations. Ex-Im Bank, like most participants in the market, is not immune from the effect of
this crisis as evidenced by increased requests for Ex-Im Bank support.

The global banking sector has been directly impacted by the current financial crisis. Ex-Im
Bank’s exposure to the banking sector across the globe is approximately $2.0 billion down from
$2.6 billion in the prior year. Over the last year, a number of governments have stepped in to
bailout banks within their individual systems. Ex-Im Bank continues to closely monitor this
sector, including sending teams to various markets for direct conversations with regulatory
authorities as well as individual banks.
Ex-Im Bank continuously monitors its portfolio of credits after they have been approved. This
entails scheduled risk-based review of the debt service capacity of the obligors taking into
account internal and external factors that directly impact ability and willingness to pay. These
periodic reviews allow staff to build greater familiarity with the businesses to which Ex-Im Bank
is exposed and the information obtained through this effort allows staff to identify vulnerabilities
or weaknesses in the credit. Consequently, the ability to develop and implement remediation
actions is greatly enhanced which ultimately has a positive impact on the quality of the portfolio
and final outcome. Most importantly, the information thus gathered serves as a very critical
variable as the Bank reviews new requests for support.

Exposure-Risk Profile
In accordance with the risk rating system detailed above, Ex-Im Bank classifies credits into 11
risk categories, with level 1 being the lowest risk. In addition, certain credits and capitalized
interest included in gross loans receivable are reserved at 100 percent. Ex-Im Bank generally
does not authorize new credits that would be risk-rated worse than level 8. On this scale, level 3
is approximately equivalent to Standard and Poor’s BBB level 4 approximates BBB-, and level 5
approximates BB.

Ex-Im Bank’s activity increased significantly in FY 2009 due primarily to the private sector’s
inability to finance export credits. The quality of the transactions that were financed by Ex-Im
Bank improved as evidenced by the weighted-average risk rating of new activity. The
improvement is related to the increase in demand for Ex-Im Bank supported financing among
higher rated obligors resulting from the financial crisis in FY 2009. The overall weighted-
average risk rating for FY 2009 short-term rated, medium-term, and long-term export-credit
authorizations was 3.43 compared to a weighted-average risk rating of 3.77 in FY 2008. 76.7
percent of Ex-Im Bank’s short-term rated, medium-term, and long-term new authorizations for
FY 2009 were in the level 1 to 4 range (AAA to BBB-) while 23.3 percent were rated level 5 to 8
(BB+ to B-).

Exhibit 14 shows the risk profile of Ex-Im Bank’s short-term rated, medium-term, and long-term
authorizations in FY 2009 and FY 2008 and the past five-year average-risk profile.
Exhibit 14: Short-Term Rated, Medium-Term, and Long-Term Authorizations by Risk Category



                                            50%
  Percentage of Short-Term Rated, Medium-
     Term and Long-Term Authorizations




                                            40%


                                            30%


                                            20%


                                            10%


                                            0%
                                                  Level 1   Level 2   Level 3   Level 4   Level 5   Level 6   Level 7   Level 8   Level 9
                                                                                                    FY 2008         FY 2009          5 Yr Average
                                                  Risk Level Category



Changes in the Portfolio-Risk Level
At September 30, 2009 Ex-Im Bank had a portfolio of $67,987.8 million of loans, guarantees,
insurance and outstanding claims receivable. Exhibit 15 shows the weighted–average risk rating
for new authorizations and the outstanding portfolio over the past five fiscal years. The new
business risk rating includes all short-term rated, medium-term, and long-term transactions
authorized in each respective fiscal year and reflects the weighted-average risk rating for these
authorizations. The outstanding portfolio includes new business transactions and the existing
portfolio risk-rated at the end of each fiscal year.

The risk rating for the outstanding portfolio increased to 4.31 in FY 2009 as compared to 4.25 in
FY 2008 (Exhibit 15). The increase in the weighted average risk rating is a direct result of the
state of the global economy. During FY 2009 there was deterioration in the credit quality of the
existing portfolio, which was partially offset by new authorizations for higher rated obligors. A
major improvement in ratings is not foreseen in the near term in the Bank’s portfolio.
                                                 Exhibit 15: Credit Quality Risk Profile



                                            7
  Weighted-Average Risk Level




                                            6


                                            5


                                            4


                                            3


                                            2


                                            1
                                Fiscal Year      2005          2006          2007          2008   2009
                                Total Exposure   4.80          4.50           4.40         4.25   4.31
                                New Business     3.95          3.89           4.00         3.77   3.43




VIII. Financial Statement Analysis
Significant Financial Data
Exhibit 16 presents certain financial data from the Balance Sheets and the Statements of Net
Costs. This financial data is highlighted due to a significant change (10 percent or more) and/or
significant dollar difference between the applicable periods for FY 2009 and FY 2008. More
detailed financial information can be found in the financial statements and footnotes.
                                Exhibit 16: Significant Financial Data

(in millions)                                                     FY 2009            FY 2008
Receivable from Program Account                               $          1,396.6 $         664.7
Loans Receivable, Net                                                    3,936.3         3,071.2
Borrowings from the U.S. Treasury                                        3,805.2         2,929.1
Payable to the Financing Account                                         1,396.6           664.7
Payment Certificates                                                        82.7           104.1
Guaranteed Loan Liability                                                2,234.1         1,376.1
Other Liabilities                                                          176.1           102.2
Total Net Position                                                        (842.3)           67.1

Provision for Credit Losses                                              1,305.4           164.4
Interest Income                                                            607.4           537.1
Liquidating Account Distribution of Income                                  46.9           109.7

Receivable from Program Account: The Receivable from the Program Account increased
$731.9 million from $664.7 million at the end of FY 2008 to $1,396.6 million at the end of FY
2009. This increase is primarily related to the FY 2009 upward re-estimate partially offset by the
receipt from Treasury of the appropriation for the FY 2009 upward re-estimate.

Loans Receivable, Net: Loans Receivable increased by $865.1 million from $3,071.2 million at
September 30, 2008 to $3,936.3 million at September 30, 2009. Most of the increase can be
explained by $1,446.9 million in additional direct loan disbursements as well as activity within
the rescheduled loan portfolio, partially offset by repayments and prepayments of $725.5 million.

Borrowings from the U.S. Treasury: Borrowings from the U.S. Treasury increased by $876.1
million from $2,929.1 million at September 30, 2008 to $3,805.2 million at September 30, 2009.
The increase is related to the current year’s borrowings resulting from the increase in Ex-Im
Bank’s direct lending. The $2,069.0 million borrowings in FY 2009 were partially offset by
repayment of $1,192.9 million of borrowings.

Payable to the Financing Account: The Payable to the Financing Account increased by $731.9
million from $664.7 million at September 30, 2008 to $1,396.6 million at September 30, 2009.
The increase can be attributed to the FY 2009 upward re-estimate, partially offset by the receipt
from Treasury of the appropriation for the FY 2008 upward re-estimate.

Payment Certificates: Payment Certificates decreased by $21.4 million from $104.1 million at
September 30, 2008 to $82.7 million at September 30, 2009. The decrease relates to $27.1
million in repayments, partially offset by the issuance of $5.7 million in new payment
certificates.

Guaranteed Loan Liability: The Guaranteed Loan Liability increased by $858.0 million from
$1,376.1 million at September 30, 2008 to $2,234.1 million at September 30, 2009. The increase
is mostly related to the FY 2009 upward re-estimate.
Other Liabilities: Other Liabilities increased $73.9 million from $102.2 million at September
30, 2008 to $176.1 million at September 30, 2009. The increase is related to an increase in
offsetting collections partially offset by other miscellaneous activity.

Total Net Position: The Total Net Position decreased $909.4 million from $67.1 million at
September 30, 2008 to ($842.3) million at September 30, 2009. The decrease can be attributed to
the decrease in Unexpended Appropriations resulting from the absence of any appropriations in
FY 2009, prior year appropriations for program and administrative costs continuing to disburse,
as well as a higher Total Net Excess Costs Over Revenue for FY 2009 as compared to FY 2008
results, primarily attributed to the FY 2009 upward re-estimate.

Provision for Credit Losses: The Provision for Credit Losses increased $1,141.0 million from
$164.4 million for FY 2008 to $1,305.4 million in FY 2009. The increase primarily reflects the
FY 2009 upward re-estimate and an increase in the reserves for the pre-credit reform portfolio as
well as differing portfolio risks over the corresponding time periods.

Interest Income: Interest Income increased by $70.3 million from $537.1 million in FY 2009 to
$607.4 million in FY 2009. The increase is related to the increasing Loans Receivable balance.

Liquidating Account Distribution of Income: For the portfolio authorized prior to FCRA, this
line item represents cash balances in excess of amounts needed to cover obligations, which are
transferred to the U.S. Treasury. The $62.8 million decrease from $109.7 million during FY
2008 to $46.9 million in FY 2009 reflects the decrease in the pre-FCRA portfolio.


Significant Factors Influencing Financial Results
The most significant factor that determines Ex-Im Bank’s financial results and condition is a
change in the risk level of Ex-Im Bank’s loan, guarantee and insurance portfolio, and the
adjustment to the allowance for credit losses that must be made to reflect the change in risk. The
level of risk of individual credits or groups of credits may change in an unexpected manner as a
result of international financial, economic and political events. Consequently, significant and
unanticipated changes in Ex-Im Bank’s allowance for credit losses may occur in any year.

The major risks to the Bank in its credit portfolio are repayment risk and concentration risk.
Other risks the Bank must assess and attempt to minimize are foreign-currency risk, operational
risk, organizational risk and interest rate risk.

Repayment Risk: In fulfilling its mission to facilitate U.S. exports by providing competitive
export financing, Ex-Im Bank must balance the risks associated with assuming credit and
country risks that the private sector is unable or unwilling to accept with the requirement of
reasonable assurance of repayment for its credit authorizations. Repayment risk is the risk that a
borrower will not pay according to the original agreement and the Bank may eventually have to
write-off some or the entire obligation. Repayment risk is primarily composed of:
Credit Risk: The risk that an obligor may not have sufficient funds to service its debt or may not
be willing to service its debt even if sufficient funds are available.

Political Risk: The risk that payment may not be made to the Bank, its guaranteed lender or its
insured as a result of expropriation of the obligor’s property, war or inconvertibility of the
borrower’s currency into U.S. dollars.

Concentration Risk: Risks stemming from the composition of the credit portfolio as opposed to
risks related to specific obligors. The Bank has the following concentration risks:

Industry: The risk that events could negatively impact not only one company but many
companies simultaneously in the same industry. The Bank’s credit exposure is highly
concentrated by industry: 67.4 percent of the Bank’s credit portfolio is in three industries (air
transportation, oil and gas, and manufacturing), with air transportation representing 48.8 percent
of the Bank’s total exposure. Events impacting these industries are frequently international in
nature and may not be confined to a specific country or geographic area.

Geographic Region: The risk that events could negatively impact not only one country but many
countries simultaneously in an entire region. The Bank’s credit exposure is concentrated by
geographic region, with 62.5 percent of the portfolio contained in two geographic regions: Asia
(41.6 percent) and Latin America and Caribbean (20.9 percent).

Obligor: The risk stemming from portfolio concentration with one or a few obligors such that a
default by one or more of those borrowers will have a disproportionate impact. The Bank’s 10
largest public-sector obligors make up 25.5 percent of its portfolio, while the 10 largest private-
sector obligors make up 17.3 percent.

Foreign-Currency Risk: Risk stemming from an appreciation or depreciation in the value of a
foreign currency in relation to the U.S. dollar in Ex-Im Bank transactions denominated in that
foreign currency. At the time of authorization, Ex-Im Bank does not hedge its foreign-currency
exposure; however, when the Bank pays claims under foreign-currency guarantees, the notes are
converted from a foreign-currency obligation to a U.S. dollar obligation. The obligor must then
repay to Ex-Im Bank the balance in U.S. dollars. This converts the foreign-currency loan to a
dollar loan at that point, thereby eliminating any further foreign-exchange risks.

Ex-Im Bank provides support for guarantees and insurance denominated in certain foreign
currencies. The foreign currencies approved for Ex-Im Bank transactions as of September 30,
2009 are: Australian dollar, Brazilian real, British pound, Canadian dollar, CFA franc,
Colombian peso, Egyptian pound, euro, Indian rupee, Indonesian rupiah, Japanese yen, Korean
won, Malaysian ringgit, Mexican peso, Moroccan dirham, New Zealand dollar, Norwegian
krone, Pakistani rupee, Philippine peso, Polish zloty, Russian ruble, South African rand, Swedish
krona, Swiss franc, Taiwanese dollar and Thai baht. At the time of authorization, Ex-Im Bank
records the authorization amount as the U.S. dollar equivalent of the foreign-currency obligation
based on the exchange rate at that time.
Operational Risk: Operational risk is the risk of material losses resulting from human error,
system deficiencies and control weaknesses. To mitigate the risk of loss stemming from
operational dysfunctions, Ex-Im Bank has established a strong internal control environment that
is reviewed by an independent internal auditor and has included process documentation, proper
supervisory monitoring and technology access/edit controls. Ex-Im Bank also has an Office of
Inspector General that conducts audits, inspections and investigations relating to the Bank’s
program and support operations.

Organizational Risk: The risk of loss to Ex-Im Bank due to the organizational environment:
people and skills, incentives, culture and values. Ex-Im Bank hires highly qualified individuals
and has a culture of rigorous risk assessment. Continual training opportunities are offered to all
employees to maintain and enhance their high skill levels.

Interest Rate Risk: Ex-Im Bank makes fixed-rate loan commitments prior to borrowing to fund
loans and takes the risk that it will have to borrow the funds at an interest rate greater than the
rate charged on the credit. Any interest rate disparity would be accounted for in the subsidy re­
estimate.

IX. Other Management Information

Statutory Limitations
Ex-Im Bank has several significant financial limitations that are contained in the Charter and in
various appropriation acts. The following exhibits (Exhibit 17 and Exhibit 18) summarize the
status of those limitations as of September 30, 2009, as well as the utilization of available
funding.
                                       Exhibit 17: Financial Statutory Limitations

  (in millio ns)
                                                                                            Adminstrative
  Spending Authority                                 Program Budget         T ied-Aid           Expense
  Carry-Over from prior year                                  $139.9           $203.8            $ N/A
  Rescission of Carry-Over Funds                               (27.0)           (17.0)              N/A
  Cancellations during FY 2009                                    4.3              -                N/A
  Offsetting Collections                                         75.0              -                81.5
  Inspector General                                              N/A              N/A                2.5
  T otal                                                      $192.2           $186.8              $84.0

  Ob ligated                                                   $29.6            $7.8               $81.8
  Unob ligated Balance Lapsed                                   18.2             -                   -
  Unob ligated Balance Available                              $144.4          $179.0                $2.2

                                                           Available       Obligated            Balance
  Statuto ry Lending Autho rity                           $100,000.0       $67,987.8           $32,012.2



Tied-aid is government-to-government concessional financing of public-sector capital projects in
developing countries. Tied-aid terms usually involve total maturities longer than 20 years, lower­
than-market interest rates and/or direct grants.



                         Exhibit 18: Program Budget (excluding Tied Aid) Available and Utilized


                    $1,200.0

                    $1,000.0

                      $800.0
   i n mill ion s




                      $600.0

                      $400.0

                      $200.0

                         $0.0
                    Fiscal Year    2005           2006             2007             2008              2009
                     Available    $569.7         $421.5           $169.5           $165.6            $192.2
                     Utilized     $241.2         $190.8           $51.7             $25.4             $29.6
X. Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results
of operations of Ex-Im Bank, pursuant to the requirements of 31 U.S.C. 3515 (b). While the
statements have been prepared from the books and records of Ex-Im Bank in accordance with
government GAAP and the formats prescribed by OMB, the statements are in addition to the
financial reports used to monitor and control budgetary resources, which are prepared from the
same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.
             XI. Required Supplementary Information

             Exhibit 19 presents the Statement of Budgetary Resources by Ex-Im Bank’s major budget
             accounts.


                                    Exhibit 19: Disaggregated Statement of Budgetary Resources


                                                 For the Year Ended September 30, 2009

                                                                                   Guaranteed-       Pre-Credit-
                                                                     Direct-Loan      Loan            Reform
                                                        Program       Financing     Financing        Financing
(in millions)                                           Account       Account       Account          Account       Other      Total
BUDGETARY RESOURCES
Unobligated Balance, Brought Forward October 1            $552.7            $-            $851.8          $5.5     $55.7     $1,465.7
Recoveries of Prior-Year Unpaid Obligations                 15.3            4.9               -             -        0.9         21.1
Budget Authority:
      Appropriation                                         570.5            -              -                -       2.5        573.0
      Borrowing Authority                                      -        4,619.8             -                -        -       4,619.8
      Spending Authority from Offsetting Collections        157.6       1,061.2        1,020.6             48.4     39.4      2,327.2
Permanently Not Available                                   (49.3)     (1,192.9)            -             (47.0)      -      (1,289.2)
Total Budgetary Resources                                $1,246.8      $4,493.0       $1,872.4             $6.9    $98.5     $7,717.6



STATUS OF BUDGETARY RESOURCES
Obligations Incurred, Direct                              $691.2       $4,493.0       $1,014.9            $5.8     $14.7     $6,219.6
Unobligated Balance, Apportioned                            340.1            -           857.5             1.1      82.7      1,281.4
Unobligated Balance Not Available                           215.5            -              -               -        1.1        216.6
Total Status of Budgetary Resources                      $1,246.8      $4,493.0       $1,872.4            $6.9     $98.5     $7,717.6

CHANGE IN OBLIGATED BALANCE
Obligated Balance, Net:
      Unpaid Obligations, Brought Forward October 1         $89.3         $97.6              $3.0           $-       $0.5     $190.4
Obligations Incurred, Net                                   691.2       4,493.0           1,014.9           5.8      14.7     6,219.6
Gross Outlays                                              (668.8)     (1,886.5)         (1,006.1)         (5.8)    (14.1)   (3,581.3)
Recoveries of Prior-Year Unpaid Obligations                 (15.3)         (4.9)               -             -       (0.9)      (21.1)
Total, Unpaid Obligated Balance, Net, End of Period         $96.4      $2,699.2             $11.8           $-       $0.2    $2,807.6

NET OUTLAYS
     Gross Outlays                                        $668.8       $1,886.5       $1,006.1             $5.8     $14.1    $3,581.3
     Less: Offsetting Collections                         (157.6)      (1,061.2)      (1,020.6)           (48.4)    (39.4)   (2,327.2)
Net Outlays                                               $511.2         $825.3         ($14.5)          ($42.6)   ($25.3)   $1,254.1
Improper Payments Information Act

The Improper Payments Information Act (IPIA) of 2002 (P.L. No. 107-300) requires agencies to
review their programs and activities to identify those susceptible to significant improper
payments. In accordance with IPIA, Ex-Im Bank assessed its risk of a significant erroneous
payment (defined for this purpose as annual erroneous payments in a program exceeding both
2.5 percent of the program payments and $10 million). The scope of this assessment included all
program payments. For this purpose the term “payment” is defined as any payment that is:

   •	 Derived from Federal funds or other Federal sources;
   •	 Ultimately reimbursed from Federal funds or resources; or
   •	 Made by a Federal agency, a Federal contractor, a governmental or other organization
      administering a Federal program or activity.

Ex-Im Bank identified three areas of payments which qualify under the above definition and
therefore, warranted a risk assessment: administrative payments, claim payments, and loan
disbursements. Ex-Im Bank assessed the risk of improper payments associated with these
programs to be low due to its internal controls in place and the nature of these disbursements.
Based on this assessment, under the IPIA, no further action was required.

Ex-Im Bank plans to continue improving its formal risk assessment in the upcoming fiscal year.
It will perform an additional risk assessment in the area of Commitments and incorporate an
Improper Payments Risk Assessment Questionnaire which includes questions categorized per the
Committee of Sponsoring Organizations of the Treadway Commission (COSO) Internal Control
Framework (control environment, risk assessment, control activities, information and
communication and monitoring). Inclusion of the questionnaire will incorporate additional
quantitative components into the risk assessment.
